<html>
<title> - H.R. 2223, H.R. 2993, AND H.R. 1728</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 2223, H.R. 2993, AND H.R. 1728

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 2223

                      THE EDUCATION LAND GRANT ACT

                               H.R. 2993

 TO PROVIDE FOR THE COLLECTION OF COMMERCIAL FILMING FEES ON NATIONAL 
         PARK SYSTEM AND NATIONAL WILDLIFE REFUGE SYSTEM UNITS

                               H.R. 1728

       THE NATIONAL PARK SERVICE ADMINISTRATIVE AMENDMENT OF 1997

                               __________

                   FEBRUARY 24, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-71

                               __________

           Printed for the use of the Committee on Resources

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
47-365 cc                   WASHINGTON : 1998



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         DALE E. KILDEE, Michigan
HELEN CHENOWETH, Idaho               CARLOS A. ROMERO-BARCELO, Puerto 
LINDA SMITH, Washington                  Rico
GEORGE P. RADANOVICH, California     MAURICE D. HINCHEY, New York
WALTER B. JONES, Jr., North          ROBERT A. UNDERWOOD, Guam
    Carolina                         PATRICK J. KENNEDY, Rhode Island
JOHN B. SHADEGG, Arizona             WILLIAM D. DELAHUNT, Massachusetts
JOHN E. ENSIGN, Nevada               DONNA CHRISTIAN-GREEN, Virgin 
ROBERT F. SMITH, Oregon                  Islands
RICK HILL, Montana                   RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas

                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                   Gary Griffith, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 24, 1998...................................     1

Statements of Members:
    Duncan, Jr., Hon. John J., a Representative in Congress from 
      the State of Tennessee.....................................     5
    Faleomavaega, Hon. Eni F. H., a Delegate in Congress from 
      American Samoa.............................................     8
        Prepared statement of....................................     9
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
    Hayworth, Hon. J. D., a Representative in Congress from the 
      State of Arizona...........................................     5
        Prepared statement of....................................     7
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     3
    Vento, Hon. Bruce F., a Representative in Congress from the 
      State of Minnesota, prepared statement of..................    31

Statements of witnesses:
    Attaway, Mr. Fritz, Senior Vice President and General 
      Counsel, Motion Picture Association of America, Government 
      Relations..................................................    32
        Prepared statement of....................................    50
    Berry, John M., Assistant Secretary, Policy Management and 
      Budget, Department of Interior, accompanied by Richard 
      Coleman, Chief, Division of Refuges, Fish and Wildlife 
      Service; Henry Bisson, Special Assistant to the Director, 
      Bureau of Land Mangement...................................    23
        Prepared statement of Mr. Berry..........................    46
    Bittner, Ross, Vice-Mayor, Globe, Arizona....................    13
    Chandler, William, Vice President for Conservation Policy, 
      National Parks and Conservation Association................    34
        Prepared statement of....................................    54
    Esch, Leigh von der, Executive Director, Utah Film Commission    36
        Prepared statement of....................................    52
    Finnerty, Maureen, Associate Director, Park and Operations 
      and Education, National Park Service.......................    26
        Prepared statement of....................................    48
    Franquero, David, Mayor, Globe, Arizona......................    13
    Key, Sandra, Associate Deputy Chief, Forest Service, U.S. 
      Department of Agriculture, accompanied by James Snow, Chief 
      Counsel, U.S. Department of Agriculture....................    10
        Prepared statement of Ms. Key............................    43
    Stratton, Steve, Administrator, Globe, Arizona, accompanied 
      by Mary Lou Tamplin, Assistant, Globe, Arizona.............    12
        Prepared statement of Mr. Stratton.......................    44


                H.R. 2223, THE EDUCATION LAND GRANT ACT



H.R. 2993, TO PROVIDE FOR THE COLLECTION OF COMMERCIAL FILMING FEES ON 
     NATIONAL PARK SYSTEM AND NATIONAL WILDLIFE REFUGE SYSTEM UNITS



 H.R. 1728, THE NATIONAL PARK SERVICE ADMINISTRATIVE AMENDMENT OF 1997

                              ----------                              


                       TUESDAY, FEBRUARY 24, 1998

        House of Representatives, Subcommittee on National 
            Parks, and Public Lands, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. James V. 
Hansen (chairman of the Subcommittee) presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. [presiding] We welcome all of you here. We're 
honored to have the Honorable J.D. Hayworth with us, past 
member of the Committee who defected to go to greener pastures 
or----
    Mr. Hayworth. Well, I don't know about that, Mr. Chairman.
    Mr. Hansen. Let me and Mr. Hefley make an opening comment. 
We'll come right to you, if we may.
    The Subcommittee on National Parks and Public Lands is now 
convened.
    This morning we'll hear testimony on three bills: H.R. 
2223, The Education Land Grant Act; H.R. 2993, to provide for 
the collection of commercial filming fees on National Park 
System and National Wildlife Refuge System Units; and H.R. 
1728, The National Park Service Administrative Amendment of 
1997.
    The first bill is H.R. 2223, introduced by Mr. Hayworth of 
Arizona, which would amend the Recreation and Public Purposes 
Act, RPPA, which covers Bureau of Land Management public domain 
lands, to include Forest Service lands, and would provide for 
an expedited review of RPPA application from local education 
agencies by the Federal Government.
    I commend Mr. Hayworth for introducing this bill. As it 
stands now, any time we want to convey National Forest land to 
a community for a school, we have to come in here and push a 
bill all the way through Congress. H.R. 2223 would give the 
Forest Service the statutory authority to make these decisions 
administratively, to address such important issues as this one 
is to provide land for the purpose of educating our children.
    The second bill is H.R. 2993, sponsored by Mr. Hefley of 
Colorado. This bill addresses a very unusual situation at the 
Department of Interior where the National Park Service and the 
U.S. Fish and Wildlife Service are prohibited from collecting 
location fees from the motion picture, television, and 
commercial advertising enterprises in this country, who use the 
scenic vistas of the national park system and the National 
Wildlife Refuge System for the backdrop of some very well-known 
films.
    For instance, who could forget that ``Close Encounters of 
the Third Kind'' used Devil's Tower National Monument in 
Wyoming. Or who would recognize that Arches National Park in 
Utah was used for scenes in ``Indiana Jones and the Last 
Crusade'' and ``City Slicker II''? Or that Zion National Park 
in Utah was the backdrop for scenes from ``Butch Cassidy and 
the Sundance Kid'' and ``Romancing the Stone''?
    The motion picture, television, and the advertising 
industries have filmed thousands of productions involving the 
National Park System, National Wildlife Refuge System, National 
Forest System, and the public domain managed by the Bureau of 
Land Management. The commercial film industries work with the 
Bureau of Land Management under a complicated special use 
permitting system and with the Forest Service on a recently 
developed comprehensive fee schedule program.
    This Subcommittee, with the leadership of Mr. Hefley, is 
interested in removing the restrictions that the National Park 
Service and the Fish and Wildlife Service have on collecting a 
reasonable, understandable fee for commercial filming at these 
unique locations. The Subcommittee has no intent to charge any 
unreasonable fees, or to prohibit filming at these interesting 
locations. The Subcommittee feels that at a time where 
recreational fees are being charged to the American taxpayer to 
help resolve the backlog of infrastructure, maintenance, and 
operational costs at units managed by these land management 
agencies, it is a very appropriate time to correct this 
administrative prohibition against collecting commercial 
filming fees.
    As we hear testimony today, I will look forward to working 
with Mr. Hefley, the administration, the commercial film 
industry, and other interested parties to craft a uniform 
policy for filming on these vast public lands that will benefit 
the land management agencies and the enjoyment of the American 
public.
    Finally, we will hear testimony on H.R. 1728, the National 
Park Administrative Amendment of 1997, also sponsored by our 
colleague Mr. Hefley. This bill has a rather interesting past 
within this Subcommittee and the Congress, to say the least. 
H.R. 1728 consists only of Title II of H.R. 260, which was 
reported from the Committee in the 1st session of the 104th 
Congress. It should be noted that the intent of this bill is as 
sound today as it was in 1995. And I hope my colleague from 
Colorado will--the two of us can look forward to no one trying 
to politicize this bill or make fictitious statements about it 
that have a tendency to come out from time to time, as did in 
the last session of Congress. There was no park closing bill, 
ever.
    This bill will require that the Secretary of the Interior 
submit to the Congress on an annual basis, as part of the 
budget justification process, a priority list of 
recommendations for additions to the National Park System. This 
bill shall be developed utilizing specific study criteria that 
will assure that units recommended for Congressional 
authorization are of national significance. This process will 
assist the National Park Service in not inappropriately 
recommending expansion of the existing 376 unit system, and 
will assist the Congress in authorizing only important and 
nationally significant additions to the National Park System. I 
think maybe we ought to put monuments in that, Mr. Hefley.
    This is especially timely legislation as the Congress is 
attempting to address the backlog of maintenance and 
operational needs of existing units of the National Park 
System. I want to thank Mr. Hefley for engaging in this issue 
once again because of its importance to the National Park 
System.
    I would now recognize my distinguished colleague, Mr. 
Faleomavaega, of American Samoa, the Ranking Member, but he 
isn't here, so I'll turn to Mr. Hefley of Colorado.

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. Thank you, Mr. Chairman. And I am pleased that 
we've been able to schedule hearings today on these three 
bills, particularly the two that I am particularly concerned 
about that are designed to improve the National Park Service, 
both today and in the future. And I want to thank you, Mr. 
Chairman, for your rather courageous leadership in trying to--
in working with me to try to improve the park system. And it's 
not always been interpreted correctly, as we've struggled 
shoulder to shoulder on this issue, and you've mentioned that. 
But I think we have a history of trying to work in the 
direction of having the greatest park system in the world.
    The first National Park Service Administrative Amendments 
of 1997 would require that future additions to the park system 
be the result of a logical process, not just legislative clout, 
which has kind of been the historic way of going about it here.
    H.R. 1728 would require that additions be the result of 
National Park Service recommendations arising out of a theme 
study and study of alternatives. It would require that any 
additions be authorized before any spending on that 
recommendation is appropriated. It would establish a central 
planning office in Washington to direct such studies, and would 
require Interior to submit a list of top priorities for new 
units each year as part of its budget submittal and continue 
submitting those proposals until they either accept it or 
reject it.
    If H.R. 1728 looks familiar to some people, it's because it 
does comprise Title II of the National Park Service Reform Act, 
which was misrepresented in the last Congress as the park 
closing bill. You made the point: there was no park closing 
bill. But it was politically expedient for some people to 
characterize it as that at that time. But I think that time has 
passed now, and I think we can get on to the business of trying 
to improve the park system.
    Amid all the rhetoric over that bill, there was agreement 
on a prospective, forward-looking bill which would ensure 
additional units were legitimate ones. This is that prospective 
bill.
    The second bill, H.R. 2993, would allow units of the 
National Park Service and the Fish and Wildlife Service to 
collect fees for commercial filming at their units. This bill 
is the result of grass-roots interest. Last fall, a lady from 
Englewood, Colorado, asked my office why Hollywood directors 
could film in our parks for free. We checked into it and found 
out that the law prohibited the Park Service from collecting 
fees, and that everyone felt pretty bad about that fact. In 
November, the Washington Post published an article on this, and 
let me just share with you briefly here. In Arches National 
Park, ``Indiana Jones and the Last Crusade,'' you mentioned was 
partially filmed there. That film grossed domestically $197 
million. Blue Ridge Parkway--``The Fugitive,'' $184 million. 
Devil's Tower National Monument--``Close Encounters of the 
Third Kind,'' $166 million. Grand Teton National Park--``Rocky 
IV,'' $128 million. National Capital Region here, of course, is 
always a setting for some film or other, it seems like. 
``Forest Gump,'' $330 million. ``The Firm,'' $158 million, and 
on and on down the line. So we're talking about enterprises 
that make a lot of money. We don't want them to not film in our 
parks. I think that's great that they film in our parks, but 
there ought to be a way to collect a fair fee on that.
    A lot's been said lately about the number of popular films 
that have been made on public land, and John Ford, for 
instance, who can forget the monumental films, the Westerns, 
made in your neck of the woods, near Moab, Utah, Mr. Chairman. 
The Forest Service recently adopted a detailed policy and fee 
schedule on commercial filming. BLM works within its special 
use permit program, but the Park, and Fish and Wildlife 
Services are prohibited from collecting fees, and they're 
prohibited by law. And I don't know quite how that came about, 
but it is in the law. No one knows when or why this happened. 
Interior officials, preparing to brief Secretary Babbitt on 
this issue, could find really no legislative history.
    What I hope we can get out of today's hearing is 
legislation that would restore some equity to the public land 
agencies. Absent a fee program, the National Park Service, and 
Fish and Wildlife, must eat the cost of overseeing commercial 
filming. This limits their ability to protect their units, 
ignores the source of maintenance revenue; and it discourages 
the use of these units for filming.
    I hope we'll come up with legislation which will balance 
entrepreneurship and good stewardship. I think everyone 
benefits from filming on public lands. At the same time, we 
don't want to turn these units into sound stages, so some kind 
of a balance needs to be struck. And with that, I'll close, Mr. 
Chairman. And I look forward to the hearing and the testimony 
of the witnesses.
    Mr. Hansen. Thank you, Mr. Hefley.
    I'm embarrassed that you people have to stand up. No one is 
going to use this lower tier. If you're so desirous, please 
come and use it. You're free to sit on this lower tier if you'd 
like to. If you prefer standing, by all means, stand.
    [Laughter.]
    Mr. Hansen. But whenever you'd like, you're happy to use 
this.
    The gentleman from Tennessee, Mr. Duncan, has joined us.

  STATEMENT OF HON. JOHN J. DUNCAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Mr. Chairman, thank you very much. I have no 
formal opening statement, but I am a co-sponsor of Congressman 
Hefley's bill. And I support his statement, which he just 
completed in that regard, and I thank you very much.
    Mr. Hansen. We're always pleased to have our colleague from 
Arizona with us, Mr. Hayworth. J.D., we'll turn the time to 
you, sir.

STATEMENT OF HON. J. D. HAYWORTH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Hayworth. Thank you, Mr. Chairman.
    Mr. Chairman, members of the Subcommittee, and 
distinguished guests, thank you for allowing me to testify in 
support of H.R. 2223, what my staff has taken to calling the 
Hayworth Education Land Grant Act, or HELGA. It is indeed a 
great honor to be before the Committee on which I was very 
proud to serve during the 104th Congress.
    The idea for HELGA came from legislation I introduced in 
the last Congress that became public law. That bill, H.R. 3547, 
conveyed 30 acres of U.S. Forest Service land in Apache County, 
Arizona, to the Alpine Elementary School District for the 
purpose of building new school facilities. HELGA seeks to set 
up a mechanism that would allow for similar conveyances of 
federally controlled land to local school districts nationwide.
    In President Clinton's last two State of the Union 
messages, he advocated spending $5 billion on new school 
construction. While I have serious reservations about the 
President's plan because of constitutional concerns, HELGA 
offers a way to help rural school districts with construction, 
at little or no cost to the Federal Government. If the 
administration is sincere in its efforts to help local 
communities build new schools, it should endorse this proposal 
wholeheartedly.
    HELGA would amend the Recreation and Public Purposes Act, 
Title 43, Section 869 of the U.S. Code, to authorize 
conveyances of small parcels of Federal land to public school 
districts. Currently, Title 434, Section 869 only allows 
conveyances of BLM land for certain purposes.
    HELGA would add Forest Service land to this equation by 
specifically permitting conveyances of Forest Service land to 
elementary and secondary schools, including charter schools, 
for educational purposes. If at some point the land was used 
for non-public purposes, ownership of the land would revert 
back to the Federal Government.
    The size of any transfer would be limited to 640 acres, 
which is the same limitation in Title 43, Section 869 for BLM 
lands. Land in the National Park System, National Wildlife 
Refuge System, National Wilderness Preservation System, 
National Wild and Scenic Rivers System, National Trails System, 
National Recreation Areas, and any specially designated lands 
are strictly prohibited from being subject to applications for 
conveyances. In other words, HELGA would not affect Federal 
lands of national significance.
    Finally, the Secretary of the Interior, in the case of the 
BLM, and the Secretary of Agriculture, in the case of the 
Forest Service, must respond to applications for land by school 
districts within 60 days. If this deadline is not met, the 
agency must report to the Congress.
    As you know, Mr. Chairman, private land in the West is very 
valuable. And, while most federally controlled land is located 
in the West, westerners face another problem: rapidly growing 
populations. In fact, Arizona, Utah, and Nevada are the three 
fastest growing States in the nation. With less and less 
private land on which to build schools and other public 
facilities, the West will increasingly need to find new 
solutions to its growth problems. HELGA is one of the ways we 
can alleviate some of the West's concerns and, at the same 
time, help our children receive the education they need and 
deserve.
    And while the West is growing rapidly, many school 
districts are financially strapped for cash. For example, let 
me tell you about the Alpine School District's predicament. The 
district lies within Apache County, in the eastern part of 
Arizona near the New Mexico border. Some 85 percent of Apache 
County is federally controlled land. As a result, the school 
district relies heavily on proceeds from timber harvesting.
    Unfortunately, due to cumbersome lawsuits, logging has been 
halted. Consequently, the timber receipts that had gone toward 
funding the schools have all but dried up. Without a 
conveyance, the Alpine School District could not have afforded 
to pay the estimated $7,500 per acre to purchase land and, at 
the same time, pay for badly needed new school facilities.
    The prohibitive costs for acreage and new schools make it 
nearly impossible for financially strapped school districts, 
like Alpine, to survive. However, by conveying land to the 
Alpine School District and saving that district $225,000, the 
district could afford to build new facilities, thus reducing 
class sizes and concentrating money where it is most needed: on 
the students. That is why we need to amend the Recreation and 
Public Purposes Act to include land conveyances for school 
districts on Forest Service lands.
    Now this situation isn't isolated to the Alpine School 
District. In a moment, you'll hear from city of Globe, Arizona, 
which faces similar challenges to those in Alpine. Globe is 
located in Gila County, which is the size of the State of 
Connecticut, yet only 3 percent of its land is under private 
control. In other words, the government controls 97 percent of 
the land in Gila County. Globe's population is growing, yet the 
schools are hamstrung by the prohibitive costs of buying 
acreage and paying for improved school facilities. HELGA is a 
simple way to help rural, economically strapped school 
districts to improve learning environments, thus improving 
learning.
    Mr. Chairman, on both sides of the aisle, we have talked 
about the importance of education. HELGA is a commonsense 
proposal that we can all agree on because it will allow 
economically strapped school districts throughout the United 
States to put more money where it counts: in the classroom. 
This is a goal we all support, and I hope that this 
Subcommittee will act quickly and decisively on this 
legislation to help our school children in rural America.
    Mr. Chairman, it is said what is past is prologue. And just 
as another Congressman, Justin Smith Morrill of Vermont, stood 
before his colleagues in the last century and talked about the 
opportunity of Federal land grants for institutions of higher 
learning for industrial and agricultural and mechanical arts, 
so too do we have a chance to revolutionize and to improve 
education in rural America. It is my hope that the Subcommittee 
will act forcefully and forthrightly on this legislation.
    I thank you, Mr. Chairman and members of the Subcommittee, 
for allowing me this opportunity to testify, and I'm happy to 
remain here and answer any questions you might have regarding 
HELGA. Thank you very much.
    [The prepared statement of Mr. Hayworth follows:]

Statement of Hon. J. D. Hayworth, a Representative in Congress from the 
                            State of Arizona

    Mr. Chairman, members of the Subcommittee, and 
distinguished guests, thank you for allowing me to testify in 
support of H.R. 2223, what my staff has taken to calling the 
Hayworth Education Land Grant Act or HELGA. It is indeed a 
great honor to be before the Committee on which I was very 
proud to serve during the last Congress.
    The idea for HELGA came from legislation I introduced in 
the 104th Congress that became public law. That bill--H.R. 
3547--conveyed 30 acres of U.S. Forest Service land in Apache 
County, Arizona to the Alpine Elementary School District for 
the purpose of building new school facilities. HELGA seeks to 
set up a mechanism that would allow for similar conveyances of 
federally-controlled land to local school districts nationwide.
    In President Clinton's last two State of the Union 
addresses, he advocated spending $5 billion on new school 
construction. While I have serious reservations about the 
President's plan because of constitutional concerns, HELGA 
offers a way to help rural school districts with construction 
at little or no cost to the Federal Government. If the 
Administration is sincere in its efforts to help local 
communities build new schools, it should endorse this proposal 
unequivocally.
    HELGA would amend the Recreation and Public Purposes Act--
Title 43, Section 869 of the U.S. Code--to authorize 
conveyances of small parcels of Federal land to public school 
districts. Currently, Title 43, Section 869 only allows 
conveyances of BLM land for certain purposes.
    HELGA would add Forest Service land to this equation by 
specifically permitting conveyances of Forest Service land to 
elementary and secondary schools, including charter schools, 
for educational purposes. If at some point the land was used 
for non-public purposes, ownership of the land would revert 
back to the Federal Government.
    The size of any transfer would be limited to 640 acres, 
which is the same limitation in Title 43, Section 869 for BLM 
lands. Land in the National Park System, National Wildlife 
Refuge System, National Wilderness Preservation System, 
National Wild and Scenic Rivers System, National Trails System, 
National Recreation Areas, and any specially-designated lands 
are strictly prohibited from being subject to applications for 
conveyances. In other words, HELGA would not affect Federal 
lands of national significance.
    Finally, the Secretary of the Interior, in the case of the 
BLM, and the Secretary of Agriculture, in the case of the 
Forest Service, must respond to applications for land by school 
districts within 60 days. If this deadline is not met, the 
agency must report to Congress.
    As you know, Mr. Chairman, private land in the West is very 
valuable. And, while most federally-controlled land is located 
in the West, westerners also face another problem: rapidly 
growing populations. In fact, Arizona, Utah, and Nevada are the 
three fastest growing states in the nation. With less and less 
private land on which to build schools and other public 
facilities, the West will increasingly need to find new 
solutions to its growth problems. HELGA is one of the ways we 
can alleviate some of the West's concerns and, at the same 
time, help our children receive the education they need and 
deserve.
    And while the West is growing rapidly, many school 
districts are financially-strapped for cash. For example, let 
me tell you about the Alpine School District's predicament. The 
district lies within Apache County, in the eastern part of 
Arizona near the New Mexico border. Some 85 percent of Apache 
County is federally-controlled land. As a result, the school 
district relies heavily on proceeds from timber harvesting.
    Unfortunately, due to cumbersome lawsuits, logging has been 
halted. Consequently, the timber receipts that had gone toward 
funding the schools have all but dried up. Without a 
conveyance, Alpine School District could not have afforded to 
pay the estimated $7,500 per acre to purchase land and, at the 
same time, pay for badly needed new school facilities.
    The prohibitive costs for acreage and new schools make it 
nearly impossible for financially strapped school districts, 
like Alpine, to survive. However, by conveying land to the 
Alpine School District and saving the district $225,000, the 
district could afford to build new facilities, thus reducing 
class sizes and concentrating money where it is most needed: on 
the students. That is why we need to amend the Recreation and 
Public Purposes Act to include land conveyances for school 
districts on Forest Service lands.
    This situation isn't isolated to the Alpine School 
District. In a moment, you'll hear from the city of Globe, 
Arizona, which faces similar challenges to those in Alpine. 
Globe is located in Gila County, which is the size of the state 
of Connecticut, yet only 3 percent of its land is under private 
control. In other words, the government controls 97 percent of 
the land. Globe's population is growing, yet the schools are 
hamstrung by the prohibitive costs of buying acreage and paying 
for improved school facilities. HELGA is a simple way to help 
rural, economically strapped school districts to improve 
learning environments, thus improving learning.
    Mr. Chairman, on both sides of the aisle, we have talked 
about the importance of education. HELGA is a commonsense 
proposal that we all can agree on because it will allow 
economically strapped school districts throughout the United 
States to put more money where it counts: in the classroom. 
This is a goal we all support, and I hope that this 
Subcommittee will act quickly and decisively on this 
legislation to help our school children in rural America.
    Thanks again to you, Mr. Chairman and members of the 
Subcommittee, for allowing me to testify. I will remain here to 
answer any questions you may have regarding HELGA.

    Mr. Hansen. Thank you, Mr. Hayworth.
    I'll now recognize the Ranking Member, the gentleman from 
American Samoa, for any opening statement he may have or 
questions he may have from our colleague from Arizona. Mr. 
Faleomavaega.

    STATEMENT OF HON. ENI F. H. FALEOMAVAEGA, A DELEGATE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, in the interest of time, 
I'd like to submit for the record my statement.
    Mr. Hansen. Without objection.
    Mr. Faleomavaega. And I would like to offer my personal 
welcome to our good friend and former colleague of this 
Committee, the gentleman from Arizona, for his testimony, just 
noting for the record that it is my understanding that there is 
some serious concern by the administration of the gentleman's 
bill. But I would like to admonish the administration very much 
to work closely with the gentleman from Arizona--and certainly 
from members from this side of the aisle--it seems we can work 
out some of the differences existing. And, again, I welcome the 
gentleman for his fine testimony this morning.
    [The prepared statement of Mr. Faleomavaega follows:]

 Statement of Hon. Eni E. F. Faleomavaega, a Delegate in Congress from 
                    the Territory of American Samoa

    Mr. Chairman, the bills before the Subcommittee this 
morning touch on several diverse issues. Two of the bills, H.R. 
1728 and H.R. 2993, appear to be noncontroversial and have the 
general support of the Administration and other interested 
parties.
    H.R. 1728 establishes new procedures by which potential 
additions to the National Park System are studied. These new 
procedures make a lot of sense to me, and with some minor 
changes to the bill, I believe the Subcommittee can give the 
bill its unqualified support.
    The second bill, H.R. 2993, is also noncontroversial. We 
should be charging appropriate commercial fees for the use of 
national parks and refuges, especially when such fees have a 
long-established use on public lands and national forests. The 
regulation prohibiting movie and television fees for parks and 
refuges appears to have long outlived any usefulness it may 
have ever had.
    I understand the Administration opposes the third bill, 
H.R. 2223. This bill amends the Recreation and Public Purposes 
Act to provide for the transfer of National Forest lands to 
local education entities for use as elementary and secondary 
schools. It appears that there are several important issues 
associated with this proposed change, so the Subcommittee will 
want to look carefully at these issues.
    I appreciate the presence of our witnesses today and look 
forward to their testimony.

    Mr. Hansen. Thank you. The gentleman from Colorado, 
questions for Mr. Hayworth? The gentleman from Tennessee?
    Mr. Duncan. I have no questions. I support the legislation.
    Mr. Hansen. Thank you very much. J.D., you're welcome to 
join us on the stand if you're so inclined. We appreciate you 
coming in; we appreciate your testimony.
    We'll turn to our first panel.
    Our first panel is Sandra Key, Associate Deputy Chief of 
the U.S. Forest Service. Sandra, if you'd like to come up and 
tell us what you've done with Lake Mountain Road, we'd be happy 
to hear it. And Steve Stratton, Globe City Administrator. And, 
Mr. Stratton, do you want these folks who are with you to come 
up or what would be your preference?
    Mr. Stratton. Pardon me, Mr. Chairman.
    Mr. Hansen. You have some people that are accompanying you, 
the mayor and a few others.
    Mr. Stratton. Yes, I do. I'd like to introduce the mayor 
and vice-mayor----
    Mr. Hansen. We're always honored to have you mayor and 
appreciate you being with us. If you'd like join Mr. Stratton, 
that would be fine.
    Let me tell you that Sandra Key was, at one time, the 
superintendent at Bryce Canyon National Park. She was the 
person in charge there, and then she went to Forest Service and 
had some forests in Wyoming. And we had a great association 
with Sandra when she was in charge of the park and also in 
Wyoming, but she has never answered me about what's she's done 
with Lake Mountain Road, which is a road of great importance to 
people in Utah and Wyoming. And under the new road closure and 
reasonable back country access policy, I was assuming that you 
would be here to respond to that, but apparently you're here to 
talk about Mr. Hayworth's bill, is that correct?
    Ms. Key. That's correct.
    Mr. Hansen. It's always a pleasure to have Sandra with us. 
She's originally from Nebraska and has been a real benefit to 
the United States Forest Service and National Park Service. 
We'll turn to you, if we may.
    Can you handle it in 5 minutes or do you want more time?
    Ms. Key. Five minutes is adequate and thank you for the 
welcoming comments.
    Mr. Hansen. All right if those in the panel would notice 
that we have a traffic light in front of you. It works just 
like it does when you're driving. And, only in this case, we 
don't give you a ticket, but if you go too long, we may cut you 
off. Go ahead.

    STATEMENT OF SANDRA KEY, ASSOCIATE DEPUTY CHIEF, FOREST 
 SERVICE, U.S. DEPARTMENT OF AGRICULTURE, ACCOMPANIED BY JAMES 
      SNOW, CHIEF COUNSEL, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Key. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to be here today to present the 
administration's views concerning H.R. 2223, Amendments to the 
Recreation and Public Purposes Act to transfer National Forest 
Service lands to education agencies. I am accompanied today by 
James B. Snow, Deputy Assistant General Counsel for the 
Department of Agriculture.
    With due respect to Representative Hayworth, the Recreation 
and Public Purposes Act of 1926, R&PPA, is an authority of the 
Secretary of Interior, administered by the Bureau of Land 
Management. Essentially, R&PPA makes public land available for 
campgrounds, schools, fire stations, parks, and other public 
uses. Lands can be leased or patented by the BLM to States, 
counties, municipalities, or to nonprofit corporations and 
associations, based on a pricing formula. Significantly, R&PPA 
does not apply to certain categories of land, including 
National Forest lands, the National Park System, the National 
Wildlife Refuge System, and other lands withdrawn for certain 
resource values. As we understand it, H.R. 2223 would amend 
R&PPA to include National Forest land within the categories of 
land available for disposal by the Secretary of the Interior.
    While the Department of Agriculture supports the objectives 
of making Federal lands available in certain circumstances for 
public purposes, we oppose this bill.
    Let me fully address our concerns with this particular 
bill.
    First, including disposal of National Forest lands for 
public purposes under R&PPA is unnecessary because the 
Secretary of Agriculture has existing authority to accommodate 
public uses to permit, lease, exchange and limited disposal 
authority. For example, under the Townsite Act, the Secretary 
of Agriculture may convey, for fair market value, under 640 
acres of land to established communities located adjacent to 
National Forests. In addition, the Sisk Act of 1967 provides 
the Secretary of Agriculture other authorities to exchange 
lands with States, counties, or municipal governments or public 
school districts for lands or a combination of lands and money. 
That Act is currently limited to conveyance of 800, excuse me, 
80 acres of land.
    In addition to the Townsite Act and the Sisk Act, the 
Secretary of Agriculture also has the ability to exchange 
National Forest lands with State and local governments. Lands 
of equal value may be exchanged and if there is a disparity of 
values, the values may be equalized by a cash payment.
    The Department's second concern is that making National 
Forest lands available for disposal under R&PPA would 
complicate decisionmaking about the disposal of National Forest 
land. We would do this by moving it from the local level of the 
Department of Agriculture to another department, and at the 
Cabinet-level. Decisions about appropriate uses of National 
Forest lands and resources are arrived at through the forest 
planning process under the National Forest Management Act, NFMA 
and NEPA.
    Under NFMA and NEPA, the public is extensively involved in 
decisions of the appropriate uses of land and resources and the 
environmental impacts of planning decisions are disclosed 
through that process.
    During this process, Forest Service officials are to work 
closely with State and local governments to identify their 
concerns and needs for lands, and to identify those lands 
appropriate for land ownership adjustment. The exchange or use 
of any particular National Forest land for public purposes, we 
believe, are matters best handled between the local National 
Forest office and the affected committee. To involve the 
Department of Interior in the deposition of National Forest 
lands would significantly and, we believe, unnecessarily 
complicate our relationship with State and local government and 
potentially undermine NFMA decisionmaking processes.
    In addition, amending R&PPA to include National Forest 
lands, we believe, would place an administrative burden on our 
colleagues in the Bureau of Land Management, and almost 
certainly result in delays to what is already a too-lengthy a 
process.
    The Department's third objection to this bill, as drafted, 
is that it would permit the disposal of National Forest lands 
for less than fair market value. We believe there are currently 
compelling public policy considerations for requiring the 
taxpayers of the United States to receive fair market value for 
the sale, exchange, or use of National Forest lands. Unlike 
R&PPA, all of our existing authorities, through the Secretary 
of Agriculture, require fair market value for exchanges or sale 
of National Forest land. Indeed, the policy direction in recent 
decades has been toward maximizing the returns to the public 
for lands conveyed out of Federal ownership, and we object to 
legislation that would open the door to less than fair market 
considerations for the disposition of National Forest lands.
    Mr. Chairman, we believe we can meet the needs of local 
entities and provide a fair return for the value of the 
resources to the taxpayer through amendments to the Secretary 
of Agriculture's existing authority. For instance, if we looked 
at amending the Sisk Act, we might consider eliminating the 
current limitation that requires that lands proposed for 
conveyance must have been under permit since 1983. In addition, 
we might look at approaches like installment payments under 
existing authorities, which could substantially reduce the 
financial impact of acquisitions for small communities, 
particularly one like Mr. Hayworth is representing.
    In closing, Mr. Chairman, while the Department of 
Agriculture supports the general objectives of making Federal 
lands available for education purposes, we do oppose H.R. 2223. 
We would prefer to work with you, Mr. Chairman, and with Mr. 
Hayworth and the other members of the Subcommittee to address 
these issues through amendments to existing authorities of the 
Secretary of Agriculture.
    This concludes my statement, and I would be happy to answer 
any questions.
    [The prepared statement of Ms. Key may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much. We appreciate your 
testimony. Not to embarrass those who are standing, but you are 
perfectly free to walk up here to this tier and sit down if 
you're so inclined. If you prefer standing, that's, of course, 
up to you.
    Mr. Stratton, you're recognized, sir.

  STATEMENT OF STEVE STRATTON, ADMINISTRATOR, GLOBE, ARIZONA, 
   ACCOMPANIED BY MARY LOU TAMPLIN, ASSISTANT, GLOBE, ARIZONA

    Mr. Stratton. Mr. Chairman, members of the Committee. My 
name is Steven Stratton. I'm the City Administrator of the city 
of Globe, Arizona. I have with me today Mayor David Franquero, 
Vice-Mayor Ross Bittner, and my assistant, Mary Lou Tamplin.
    It's a honor to testify on behalf of H.R. 2223. This bill 
will have a significant, positive impact on the youth of our 
country while saving the taxpayer money.
    The city of Globe is the county seat for Gila County. The 
area of Gila County is 4,748 square miles and only 3 percent of 
the land is privately owned. Due to the small percentage of 
private land, the costs of large parcels suitable for a school 
are extremely high. The utilization of Federal lands with 
minimal or no costs will help control the escalating costs of 
building schools. This would lessen the impact on the taxpayers 
of the school district. Currently in Gila County the land 
ownership is broken down as follows: U.S. Forest Service, 56 
percent, 2,659 square miles; Indian reservation, 37 percent, 
1,756 square miles; State public land, 2 percent, 95 square 
miles; BLM, 2 percent, 95 square miles; privately held land, 3 
percent, 143 square miles.
    Because only a small portion of the land in Gila County is 
taxable, property tax rates are already in the highest in the 
State. The addition of a secondary tax levy for a school bond 
issue only places an additional burden on the taxpayers. This 
burden would be lessened without a significant cost for land. 
The additional levies area also detrimental to attracting new 
businesses to our area. New businesses are needed in order to 
diversify our economy. The city of Globe has attempted to set 
an example for municipalities and other governmental entities 
by divesting itself of unnecessary land parcels, rights of 
ways, and easements.
    The citizens of our community have historically accepted 
the burden of additional taxes to provide a suitable education 
for our youth. However, in today's world of rising costs, it is 
becoming increasingly difficult to bear. The future of our 
country will depend on the education we can provide for our 
youth. I would like to commend those involved with the 
inception and, I would like encourage you to vote in favor of 
this bill for the future of your youth.
    I've also included in each packet a pie chart, which will 
demonstrate to each one of you the small amount of land in 
private hands in Gila County. It is very difficult to disburse 
the costs of such expense of a school bond over a small amount 
of people.
    Additionally, in listening to the testimony or the reading 
of H.R. 2993, and in comparison, the motion picture industry is 
generating revenue from utilization of the Federal lands. They 
should be charged. However, there is no revenue generated by a 
school district. All we are doing is generating and 
perpetuating our existence by educating our youth. I would 
encourage you to pass this bill for our youth.
    I would be happy to answer any questions----
    [The prepared statement of Mr. Stratton may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much. Mayor, we're honored to 
have you with us. Would you like to add anything to his 
statement?

      STATEMENT OF DAVID FRANQUERO, MAYOR, GLOBE, ARIZONA

    Mr. Franquero. Mr. Chairman, members of the Committee, I 
appreciate the opportunity to speak to you today. 
Coincidentally, I happen to be serving on a citizens' advisory 
committee addressing the needs of our public school.
    Currently, our schools are growing at such a rate that we 
do not have the facilities to accommodate growth. Most of our 
school facilities were built in the early 1900's. 
Unfortunately, we are having to move modular units into our 
elementary schools in order to accommodate that growth. Our 
athletic facilities--we have no locker rooms adjacent to these 
facilities because we do not have the money to build those. Our 
current indebtedness is over $3 million, and the school is 
trying to come up with solutions in order to meet the needs of 
the future for our young people.
    This particular bill is an answer to our prayers. It is 
definitely something that our school district is very much in 
favor of and we, as a community, and we urge this Committee to 
act quickly and help us and our community. And I think after 
reviewing the statistics of the private ownership in our 
county, we are a most unusual situation. On behalf of all of 
our citizens, we would certainly ask for your support.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you, Mayor. Vice-mayor, do you have any 
comment you'd like to make, sir?

     STATEMENT OF ROSS BITTNER, VICE-MAYOR, GLOBE, ARIZONA

    Mr. Bittner. Thank you very much, Mr. Chairman and members 
of the Subcommittee. Previous to today, I did not understand 
fully what was going on with this bill, so we had a talk with 
the Congressman, he explained it to us. And it would probably 
be easier for me and for you at this time, for me to say that I 
support the other two members of our team in their 
presentation.
    Mr. Hansen. We appreciate that. We appreciate all you being 
here.
    Sandra, does this have a familiar ring to it when you hear 
these gentlemen speak? Sandra Key was the superintendent of the 
parks in Bryce Canyon. Bryce Canyon is in Garfield County, and 
Garfield County is 97 percent owned by the Federal Government. 
I thought that would have a familiar ring to it. She did a very 
fine job there, though, and we appreciate the work she did.
    I'll turn to the Ranking Member, Mr. Faleomavaega for 
questions from this panel.
    You're limited to 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Chairman, I think there's not a more noble cause for 
allowing our young people to be committed to as much as 
obtaining an education. And I think this seems to be the issue 
at hand.
    I would like to ask Ms. Key, are you saying this morning, 
and please correct me if I'm wrong, that our friends here just 
need to come and see you. Are you saying that the National 
Forest Service lands are really under the Secretary of 
Agriculture and not under the jurisdiction of the Secretary of 
the Interior?
    Ms. Key. You're correct in what you perceived me to say. 
One of our objections to this bill is that it, we believe, 
transfers the decisionmaking responsibilities to the Secretary 
of the Interior. And we prefer that they----
    Mr. Faleomavaega. So if my friend from Arizona, and the 
city council and the mayor from Globe would come and see your 
office today, that maybe we could work out a transfer as they 
had requested based on the provisions of the bill?
    Ms. Key. I wish that that were the case because, as 
Chairman Hansen said, I was in Garfield County, Utah, which had 
the same issues with the lack private land. There is still the 
issue of fair market value, but as I said in my testimony, we 
would like to look at ways to ease the payment load to counties 
and local governments.
    Mr. Faleomavaega. I'd just like to--just want to be certain 
that the--I'm not missing anything here. Has the city of Globe 
ever made an application to the Forest Service for the transfer 
of lands?
    Mr. Stratton. Yes, in the 70's, they did file under the 
Townsite Act. However, we did not have the money to complete 
that transfer. Going back historically and reading the minutes, 
that's my understanding. I was still in school at the time.
    Mr. Faleomavaega. Was this for leased spaces or permanent 
transfer when you made the request in the 1970's.
    Mr. Stratton. It was for permanent transfer.
    Mr. Faleomavaega. Go ahead, Ms. Key.
    Ms. Key. I believe that was for a well system that is 
currently still under permit at $168 a year. Am I correct?
    Mr. Stratton. Yes, ma'am, you're correct. We do lease some 
Forest Service land which our municipal water supply comes 
from.
    Mr. Faleomavaega. The fact that this is not for a profit or 
commercial venture, this is for a public institution, Ms. Key. 
Am I hearing that the Forest Service is going to give them real 
wacko as far as the fair market of the land that could be 
transferred? I mean is there a different scale that we have and 
the Federal Government utilizes? This is not for commercial 
purposes. This is for a public institution which I think it's a 
very reasonable request. So will the fair market value be 
accordingly to that--for that basis?
    Ms. Key. As our authority currently exists, we would have 
to have fair market value. What I said in my testimony is that 
we would like to work with this Committee and Chairman Hansen 
and Representative Hayworth to look at other ways to ease the 
payments, such as a payment over time.
    Mr. Faleomavaega. Would you suggest that there's any 
provision in the proposed bill that really we can do 
administratively and through negotiation? Is that what you're 
suggesting here?
    Ms. Key. I'm sorry, I didn't----
    Mr. Faleomavaega. Is there anything in the bill here that 
really needs our action as a Committee?
    Ms. Key. Well, as I see the bill, the fundamental--there 
are two fundamental differences in this bill from the current 
situation. One is that it engages the Secretary of the Interior 
in our land transfer process.
    Mr. Faleomavaega. Well, let's say--forget the Secretary of 
the Interior.
    Ms. Key. [continuing] and the second----
    Mr. Faleomavaega. What you're telling us is that you need 
to engage the Secretary of Agriculture. Am I correct?
    Ms. Key. That's correct.
    Mr. Faleomavaega. Alright.
    Ms. Key. And the second difference, which is substantial, 
is that this bill would transfer at no cost. We have testified 
that we think that fair market value is good public policy.
    Mr. Faleomavaega. Well, I think that's negotiable. Would 
you suggest that maybe we can work this thing out?
    Ms. Key. I think there's room to ease that burden, yes.
    Mr. Faleomavaega. Now one of the things that we get very 
worried about, Ms. Key, and I'm sure from your experience that 
you've gone through this. We're not going renegotiate for 
another 10 years over this, are we?
    Ms. Key. I'm sorry, I didn't----
    Mr. Faleomavaega. I'm suggesting that maybe if we could do 
this in a 5-month period, at the most, to negotiate. And 
hopefully, that we could really work something out reasonably. 
Rather than negotiate for the next 10-year period, without 
having to go through enactments and all of that.
    Ms. Key. We would prefer that, also.
    Mr. Faleomavaega. Well, Mr. Chairman, thank you.
    Mr. Hansen. Thank you. The gentleman from Colorado, Mr. 
Hefley.
    Mr. Hefley. Yes, Ms. Key, I--you know, as I understand our 
history that one of the basic tenets of this country that made 
it different from the old European countries was the private 
ownership of land by the common person, and not just by 
nobility. And that it was never intended that the Federal 
Government would own and continue to own such gigantic blocks 
of land for no particular purpose. But that the way that came 
about was that when we opened up these lands--Oklahoma, 
Arizona, Colorado, Utah--for settlement, there were some lands 
that were wastelands that no one thought had any particular 
value. And the Federal Government ended up kind of getting 
stuck with those lands because no one wanted to homestead them, 
and, therefore, we have the BLM and, in some cases, the Forest 
Service and so forth.
    So it would appear to me that if there is a legitimate 
public purpose--that someone does want the land now, and 
there's a legitimate public purpose for it. How in good 
conscience can we possibly say, ``that no, this is the Federal 
Government's land and we have got to have fair market value for 
it.'' How can we possibly do that? These people are serving the 
public every bit as much as the Federal Government is, maybe 
with the education system more so. Why wouldn't we do 
everything in our power to say, sure if you have a good public 
purpose for that, we want to make it as easy as possible for 
you to acquire and use that land.
    This was never meant to be something where the Federal 
Government would have a windfall. They were stuck with the land 
because no one wanted it.
    Ms. Key. Two comments. One, as I understand the history of 
the National Forest System, we were established for--one reason 
was the purposes you defined: which these lands were not wanted 
and particularly the National Grasslands from which I sprang 
were lands that economically local people could no longer 
afford to have.
    But the larger reasons for establishing the National 
Forests was to protect watersheds and, in many cases, the 
restoration of public lands, or lands that had been damaged. So 
I have a different view of the history. But to respond to your 
issue of a windfall for the Federal Government, the moneys from 
these lands, the Townside Act, revert to the Federal treasury 
and go for such things as offsetting the deficit. And it is an 
issue of public policy whether that makes more sense or it 
makes more sense at the local level to provide some relief. Our 
view of current public policy is that we should and our 
authorities provide for us and direct us to get fair market 
value.
    Mr. Hefley. Well, you know I--if it's a profit-making 
factory that wants the piece of land to build a factory on, I 
can certainly understand that. Then we probably ought to have 
full market value on it. But when it is a public service that 
is important to the Federal Government that it be performed--in 
fact, the President put a great deal of emphasis on that public 
service in his State of the Union Address--it seems to me that 
we got our values kind of skewed. And that maybe a bill like 
this, or some kind of a bill, is necessary to make sure those 
values get back in order.
    Thank you very much.
    Mr. Hansen. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Ms. Key, you say in your testimony that public 
lands can be leased or patented by the BLM. What--do you--does 
the Forest Service consider a land patent essentially a full 
conveyance of the property? Can you tell me exactly what is the 
opinion of the Forest Service about a land patent?
    Ms. Key. I believe I know the answer to that, but I'm going 
to ask Mr. Snow to respond.
    Mr. Duncan. All right.
    Mr. Snow. Good morning, gentlemen. I'm James Snow. I'm 
Deputy Assistant General Counsel at the Department of 
Agriculture, the chief counsel dealing with public land issues.
    In response to your question, a patent constitutes a quit 
claim deed by the U.S. Government, so it conveys whatever 
right, title, and interest the government may have in a 
particular parcel. One of the difficulties with issuing 
patents, of course, is that there may be other rights in the 
property that may have been established under the mining laws 
or some other form of entry. And that is one of the 
difficulties in making, for example, rapid conveyances, because 
you have to assure that we're not conflicting with prior 
established rights.
    But the basic answer to your question is that it 
constitutes a quit claim deed.
    Mr. Duncan. I thought that was going to be your answer, but 
I did want to get that on the record. Can either of you tell me 
how many times in the past year that the Forest Service or the 
BLM has conveyed land for a school?
    Ms. Key. I don't have that. I can provide it for you, but I 
do not have it with me.
    Mr. Duncan. Well, I just would simply like to associate 
myself with the comments of Mr. Hefley, and say that I think 
it's very sad in this country today that the Federal Government 
would own 97 percent of any county. That causes problems for 
the local governments, and we're seeing that here today. And I 
really don't see how in a land that we--if we're truly to have 
a free land, where ordinary people can own property, and we 
don't end up with the wealth simply in the hands of a very 
small elite few at the top, then we have to have more private 
property in this country. And yet, we've been going very much 
in the opposite direction. It's been shocking how much land is 
being taken over, or has already been taken over, by the 
Federal Government, the State governments, the local 
governments, the quasi-governmental units. About half the land 
in this country today is in some type of public ownership, and 
that's been growing by leaps and bounds over the last 25 or 30 
years. And I can tell you that if we forget in this country 
that private property is an important and basic and essential 
ingredient of our prosperity, then we're going to be in very, 
very serious economic problems, or trouble, in this country in 
the years ahead.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Arizona, Mr. 
Hayworth. Recognized for 5 minutes.
    Mr. Hayworth. Mr. Chairman, I thank you, and let me also 
take this time to commend the Ranking Member of this 
Subcommittee, my very good friend from American Samoa, Mr. 
Faleomavaega, for his statements. And let me say in response to 
the testimony of the panel and particularly to Ms. Key and her 
remarks this morning: I am struck by the irony of what appears 
to be a protest based on a turf battle involving Washington 
bureaucrats instead of the needs of rural children throughout 
the United States of America. With all due respect, Ms. Key, I 
am happy to work in a constructive manner to iron out any 
problems. But to come before this Committee and offer general 
platitudes about well, we think this is a good idea, however, 
we're going to somehow mess up the organizational and control 
charts of Washington, DC's bureaucratic turf battles, I think 
is unconscionable. We have rural children, and we heard 
eloquent testimony from my friends from Gila County, Arizona, 
about the real needs of real people to educate their children. 
Accordingly, let me simply offer a couple of constructive 
points, and then I want to ask you a couple of particular 
questions, Ms. Key.
    First of all, it's not our intent that BLM will be giving 
away Forest Service lands. We're happy to amend this 
legislation to make it clear that the Forest Service would be 
administering the Recreation and Public Purposes Act for 
National Forest lands. I'm already working with the Committee 
on an amendment to that effect. I'll welcome any input the 
Forest Service would like to provide in that regard, but let me 
ask: since we're on the topic of fair market value, have you 
folks computed the fair market value of education to rural 
children throughout the United States? Do you want to quantify 
or put some number on that?
    Ms. Key. No, we have not and would not ever try to compute 
such an important value.
    Mr. Hayworth. I thought not because it is so important as 
to be priceless. It is so important as to be priceless. And I'd 
simply like to submit, Mr. Chairman, that the problem we have 
here, as my colleague from Colorado pointed out, is borne out 
of history and the special role the Federal Government had, 
indeed, in some quarters called a Faustian compact, where 
different territories, such as the territory of Arizona, had to 
give a huge chunk of its land to the Federal Government as the 
price for admission to this Union as a State. And now we have 
the challenges we heard only 3 percent of the land in the hands 
of private land holders in Gila County, Arizona--these folks 
just want to educate their kids.
    And I know it doesn't get the publicity of some big 
demonstration down here on the Mall, and it will never make the 
cover of Time or Newsweek. And it won't be the cause celebre in 
the concrete canyons of mid-town Manhattan. But these children 
deserve every right to an education, and we don't need it micro 
managed from Washington in some form of glorified and high-
flung turf battle.
    Now, let me turn to my friend Mr. Stratton, the city 
administrator from Globe. We heard Ms. Key talk about the input 
of local Forest Service officials. What is the input from the 
folks close to home with you, Steve? What are our Forest 
Service officials saying there?
    Mr. Stratton. Historically, the local ranger and his staff 
have worked with the city, the school districts very well. They 
do their job in protecting the lands that should remain in the 
Federal hands, but also support the conveyance of lands that 
are not necessary to remain in Federal hands.
    If I may continue--while it's commendable that the Forest 
Service would offer a payment plan, the end, or bottom line, 
result is the same: that payment is still passed on to a very 
small majority of taxpayers. For educational purposes, there 
should not be a charge.
    Mr. Hayworth. And, again, as I understand it, Mr. Stratton, 
the local Forest Service folks are willing to write letters or 
have offered letters endorsing this notion?
    Mr. Stratton. That's correct.
    Mr. Hayworth. I thank you, sir.
    Let me just make this final point, Mr. Chairman.
    The Townsite Act is a great piece of legislation. I wish it 
were used more often, but the fact is the Forest Service rarely 
grants Townsite transfers. Further, it doesn't satisfy the need 
here for below market value land for schools. The Townsite Act 
mandates that municipalities pay full market price for Townsite 
transfers. This does not give the Forest Service the 
flexibility needed. You cannot put a price on the education of 
our children. With all due respect, that is our most precious 
natural resources. We should move accordingly, and adopt HELGA.
    Thank you.
    Mr. Hansen. Thank you. The gentleman from Tennessee.
    Mr. Duncan. Mr. Chairman, I have a small church, called the 
Miller's Chapel Church, in my district in the Cherokee National 
Forest in Tennessee, which in 1995 requested two acres of land 
from the Forest Service to expand a cemetery. I received a 
letter in October 1995 from the chief of the Forest Service 
suggesting that the church exchange two acres of land with the 
Forest Service. The church has been ready to do that since 
1995. We're now told, and it's 1998, that it will be two or 
three more years before the Forest Service can complete this 
transfer, or this exchange, of two acres of land so that this 
small country church can expand their cemetery. And this is 
something that the chief of the Forest Service suggested in 
1995. I hesitated--I really wasn't going to bring that up, but 
this just points up how horribly bureaucratic the Forest 
Service is when it comes to dealing with land. We're talking 
about two acres of land in the Cherokee National Forest for the 
Miller's Chapel church and cemetery. And it just boggles my 
mind that the Forest Service would suggest something like this 
in 1995.
    In 1998, it's still not completed, and the latest 
information we have is that it's going to take two or three 
more years to complete. I think it's totally ridiculous, and it 
just shows how arrogant and bureaucratic the Forest Service has 
become when dealing with land that really does not belong to 
the Forest Service, but should belong to the people. And this 
is something they suggested themselves, and yet they say it's 
going to take two or three more years to complete. And they 
suggested this in 1995, and it's now 1998; and this was a 
suggestion, I have it in a letter right here, from the chief of 
the Forest Service at that time, Jack Ward Thomas.
    Thank you.
    Mr. Hansen. The gentleman from American Samoa.
    Mr. Faleomavaega. Just one quick question, Mr. Chairman, 
I'd like to ask Mr. Snow: as to what is our Federal policy 
concerning transfer of public lands for--let's say the 
Department of Defense wants to build a multi-billion dollar 
airbase near Globe, Arizona. What would be the fair market 
value of the transfer of these public lands? Or what is our 
Federal policy toward use of these public lands for Federal 
purposes?
    Mr. Snow. Congress has plenary authority to take any 
Federal land and devote it to any public purpose. That's 
inherent in the Constitution. I think what we are representing 
here today is that the general thrust of public land law is 
toward getting fair market value for whatever goods and 
services are provided. I'd call your attention to the 
Independent Office's Appropriations Act in Title 31, Section 
9701, of the United States Code, which basically states as 
congressional policy that the U.S. Government get fair market 
value for whatever goods and services are rendered.
    Now, obviously Congress can and has, on occasion, conveyed 
property for other than fair market value. That's within the 
purview of the Congress. But right now, the Townsite Act, the 
Sisk Act, and all the exchange authorities that we have all 
provide for fair market value. Fair market value is ascertained 
through appraisals. Appraisals are done pursuant to the 
``Uniform Appraisal Standards for Federal Land Acquisitions'' 
that are promulgated by the Department of Justice. So there's 
an objective process that is used to ascertain fair market 
value, and it is something that can be readily found out. Did I 
answer your question, sir?
    Mr. Faleomavaega. Almost. Just wanted to see specifically 
then on the terms of these valuations, or measurements, as you 
suggested earlier. For purposes of public schools, is there any 
congressional enactment that addresses the fair market value 
if, say, the city of Globe wants to transfer public lands for 
the purposes of setting up public education. Is there--do we 
have to do this congressionally or can it be done 
administratively? See, here's our problem: sometimes our 
friends downtown take forever to do a fair market value study. 
It takes years. And I just wanted to know if our friends, maybe 
Ms. Key can help us, can we do this a little more 
expeditiously, but without suggesting that we're taking 
anything away from the public's interest. Do we need to do 
something congressionally to, say, spell out specifically 
what's the fair market value of public lands that is for the 
purpose of educating our young people.
    Mr. Snow. I'll defer to Ms. Key here. But I would just note 
that the current law is adequate to do the job. I would note, 
however, that there's a lot of complexities that have been put 
into Federal law, such as the National Environmental Policy 
Act, cultural resource surveys, and other things, which add to 
the time involved. And I believe this Committee is well aware 
of the problems we've had in expediting land exchanges, and 
we've worked with Chairman Hansen on that particular issue and 
will continue to do so. I'll defer to Sandra on the policy side 
of this.
    Ms. Key. I would just like to add to what Jim said in that, 
we would like to and commit to working with the Chairman and 
this Committee on the amendments to the bills. And one of the 
things that we've been working with is processes that would 
streamline because we share the frustration, particularly at 
the local level, with the time involved. But under our current 
law, it does take that long. And we would join with you in 
trying to find ways to streamline that.
    Mr. Faleomavaega. I would like to strongly suggest that, 
Ms. Key, that members of your staff and our staff and the 
Chairman, we really would like to work with you to see if we 
can get this thing moving and not wait another 3 or 4 years, 
and the kids are still without schools. And I hope that you 
will help us in this regard.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you, panel. Let me just say that 
philosophically there's probably no greater problem and more 
frustrations are brought about than the loss on trading, 
selling, and doing something with public lands. Last term, when 
Bill Richardson was the ranking member of this Committee, we 
had a number of hearings on how we do this. Every horror story 
in America was brought. And, in a way, Congress created these 
laws, told the Forest Service and the BLM and the Park Service 
what they could and couldn't do, and then Congress, we get very 
frustrated as to what happens on these things. And that's part 
of the deal, but we all go through that.
    I would wish that there was some way, between the BLM, the 
Park Service, Reclamation, the whole nine yards, we could 
resolve this and make it somewhat simple. If we're now in the 
National Security Committee asking for an Air Force base, we'd 
get it in a minute. We'd have no problem at all from the Forest 
Service doing that. There would be none, we'd have that done in 
3 weeks. But over here, it's a little harder.
    Is the value the same? But, you see, these folks down here, 
they're subject to the law of the lands that we've created and 
it's a pretty frustrating experience for them, if I may say so, 
because I've gone through this. Thirty-eight years ago, as I 
was a city councilman in Farmington, Utah, we grew around the 
Forest Service in an area. In my 12 years on there, even at the 
time as a mayor, we tried to get the Forest Service to 
cooperate. They were always going to make a change. It never 
happened. I went to the State legislature, spent 8 years on 
that little issue, trying to get it done. I was Speaker of the 
House in the State of Utah for 2 years--never got it done. I 
had to finally, in my tenth year as a Congressman, we stuck it 
in a bill and got it done. That, along with things that 
affected other areas.
    No disrespect to the Forest Service, the BLM, the Park 
Service, or Reclamation, it's a fudge factory. It moves very 
slowly. And somehow this organization, called the U.S. 
Congress, has got to make these laws a little easier to work 
with. I can understand the frustration of members of the 
Committee. I have them myself. I would hope that we can come up 
with something and give you folks some laws to make it easier 
for you to deal with, because you've got to come up here and 
take all the arrows that we're going to throw at you regarding 
things as far as a change. My heart goes out to you folks from 
the city. Obviously, the gentleman from Arizona has a very 
meritorious idea here--it makes a lot of sense. Yet, somehow I 
think we've got to come up with something that is a little more 
encompassing that would make it easier for those who manage the 
public lands to work with the local entities--the counties, the 
cities, the states, such as that.
    With that said, we'll excuse the panel and thank you for 
your excellent testimony.
    Our second panel is Mr. John M. Berry, Assistant Secretary, 
Policy, Management and Budget, Department of the Interior, 
accompanied by Dr. Richard Coleman, Chief of the Division of 
Refuges, Fish & Wildlife Service; Henry Bisson, Special 
Assistant to the Director, BLM. And Maureen Finnerty, Associate 
Director of Park Operations and Education, National Park 
Service.
    Would you folks like to come up please?
    Mr. Faleomavaega. Would the Chairman yield?
    Mr. Hansen. Before we start with their testimony, I'll turn 
to the Ranking Member, the gentleman from American Samoa, for 
any comments he may have.
    Mr. Faleomavaega. Mr. Chairman, H.R. 2993, I think we 
should be charging appropriate commercial fees for the use of 
national parks and refuges, especially when such fees have long 
been established use on public lands and national forests. The 
current regulations apparently prohibits movie and television 
fees for parks and refuges appears to have long outlived any 
usefulness it may have ever had. And let's hope that this bill 
will move forward.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. Mr. Berry is before us for the first 
time. We appreciate you being here and appreciate your fine 
work that you did as chief of staff for Congressman Steny 
Hoyer. Steny came to Congress right after I did, and has been a 
friend. Mr. Berry will testify for the Department of the 
Interior on H.R. 2993, the Motion Picture Filming Bill.
    I will also--let's see. Will you also be on the recreation 
fee demonstration? Will you also be testifying on that?
    Mr. Berry. Later this week. Yes, sir, Mr. Chairman.
    Mr. Hansen. OK, that sounds good. Well, Mr. Berry, we'll 
turn the time to you. Is it OK if we limit you both to 5 
minutes? If you go over a little bit, I guess we can understand 
that.

    STATEMENT OF JOHN M. BERRY, ASSISTANT SECRETARY, POLICY 
 MANAGEMENT AND BUDGET, DEPARTMENT OF INTERIOR, ACCOMPANIED BY 
RICHARD COLEMAN, CHIEF, DIVISION OF REFUGES, FISH AND WILDLIFE 
   SERVICE; HENRY BISSON, SPECIAL ASSISTANT TO THE DIRECTOR, 
                    BUREAU OF LAND MANGEMENT

    Mr. Berry. Mr. Chairman, I think I'll be the only one 
speaking this morning, so that I may go over a little bit. But 
with your indulgence, while Mr. Hayworth's here, if I could 
just backtrack for one second. Getting to hear of the previous 
bill, H.R. 2223, I think you're absolutely correct that there 
ought to be a priority that we can put on education in terms of 
dealing with this, especially in areas where we are strapped. 
And I promise you today, I will go back and work with my 
counterpart, Jim Lyons, over at Agriculture. We'll put together 
a team and get on this. We'll figure out--I think there may be 
a quick way we can resolve your situation in Arizona, Mr. 
Heyworth.
    But I think also, Mr. Chairman, for the Committee's 
benefit, we need to get back to you and tell you if there are 
legal reforms that need to be done to help you on this because 
there's no question we ought to have a priority on education. 
This administration clearly has a priority on education. We 
want to work with you on this. And I commit to you today: we'll 
do that. We'll get the folks at Interior together. I'll get the 
folks at Agriculture together, and we'll get you something on 
this and work this out.
    Mr. Hansen. That won't count against your time.
    [Laughter.]
    Mr. Hansen. Let me say that really I think the Interior, 
Forest Service, we all ought to come up with a better bill on 
changes. It's the most frustrating thing. Every week we've got 
another frustrated bunch of folks from somewhere in America 
feeling they're getting had on this deal. Somewhere we've got 
to square this away.
    Mr. Berry. There's no question. We ought to be able to 
distinguish between, you know, lands that would be going to 
private sector for commercial venture and something that's 
going for the education of our children. And we ought to be 
able to do that as public officials, and if we can't, you ought 
to get rid of us. But we'll solve this.
    Mr. Faleomavaega. Would the Chairman yield?
    Mr. Hansen. The gentleman from American Samoa.
    Mr. Faleomavaega. I offer my personal welcome to our new 
Assistant Secretary for Budget in the Interior Department and, 
as a former staffer knowing how the work is on the Hill, I 
really, really am happy to hear of his commitment to see that 
our good friend from Arizona and the concerns of his 
constituents will be met. And the staff of this side of the 
aisle will be looking forward to working with you, Mr. Berry, 
and let's see if we can move this. The last thing I want to 
hear is that we're going to be kicking this issue around for 
the next 10 years, and I think that's a little long for the----
    Mr. Berry. I don't think this should take more than a 
couple weeks, so we'll be----
    Mr. Faleomavaega. Alright.
    Mr. Berry. We'll get right on this.
    Mr. Faleomavaega. Thanks.
    Mr. Hansen. Time's yours.
    Mr. Berry. Mr. Chairman, when I worked on the 
Appropriations Committee with Mr. Hoyer, Mr. Natcher used to 
stand up on the floor and tell you: ``I bring it to you kindly. 
This is a good bill.'' And sit down and move the bill. And I'm 
tempted to do that today because, Mr. Hefley, this is just not 
a good bill, this is a great bill. And we strongly support it. 
This is just fantastic.
    [Laughter.]
    Mr. Berry. And, Mr. Chairman, I'll try and get through my 
testimony quickly for you here. But I think it's important to 
get some of this information on the record for you because I 
think you have a--you're on to something, and we really want to 
work with you on this.
    The Department strongly supports this bill, and we'd like 
to work with you on just a few minor amendments that would make 
the bill applicable to all Department of Interior lands and 
land management agencies, as well as providing the flexibility 
for the Secretary to ensure that we both protect the natural 
resources and the interests of the taxpayer.
    H.R. 2993 would allow the Secretary to charge a fee for 
filming based on the fair market value of a filming permit, as 
determined by the Secretary, and authorize the Park Service and 
the Fish and Wildlife Service to retain the fees they receive 
under filming permits. Those are two critical points. This 
authority is not only much needed, but should be expanded 
slightly to give the Secretary the necessary tools to best 
represent the interests of the public. Under existing 
regulation, and the Park Service and Fish and Wildlife are 
prohibited from charging fees for the making of motion 
pictures, television productions, or sound tracks in the Park 
Service or Fish and Wildlife units.
    Units of the Parks and Fish and Wildlife have played 
significantly roles in many different types of motion pictures 
and television productions. Over the past three fiscal years, 
approximately 1,000 permits were issued for filming on BLM-
managed lands. Although the Park Service is still in the 
process of compiling their permits, its initial review 
indicates that only 16 parks--16 parks--issued permits of 2,800 
in the past 3 years--2,800 permits in the past 3 years out of 
16 parks. A cursory review of the permits has not yet been 
catalogued indicates that the entire park system issued more 
than twice that amount during this time period. We're going to 
be working on that and getting that data for the Committee in 
the next few days.
    Many of the permit issued by the Park Service, BLM, and 
Fish and Wildlife are for small productions, some of which are 
commercial in nature, others of which are educational. However, 
all three agencies issue a significant number of permits to 
makers of major motion pictures. The 400-year-old fortification 
known as ``El Morro'' at the San Juan National Historic site 
was used in the movie ``Amistad'' to depict the slave-trading 
market; the white sands of White Sands National Monument were 
used in the movie ``Star Wars'' to depict an otherwordly 
landscape; the Linville Falls Trail in Blue Ridge Parkway was 
used for the ambush scene in the ``Last of the Mohicans.'' 
These are but a few of the hundreds of memorable films that 
have been filmed in our national parks over the past few years. 
The list includes ``Dances with Wolves,'' filmed in Badlands 
National Park; ``Deer Hunter,'' made in Chelan National 
Recreational Area; ``In the Line of Fire,'' filmed in this 
capital region, as Mr. Hefley mentioned earlier.
    And the Fish and Wildlife Service has also hosted many 
memorable motion pictures, most notably, I think, is the scene 
from the ``The Raiders of the Lost Ark,'' which, you all will 
recall, when Harrison Ford is running down that hill, trying to 
escape that falling boulder that's chasing him. Well, that was 
filmed at Hanalei National Wildlife Refuge in the Hawaiian 
islands. And, I could go on and on. But you get the idea. These 
are not small PBS productions.
    It is often the unique nature of a park or refuge that 
attracts these filmmakers, and we believe the public has the 
right to be compensated for the commercial use of their 
properties and the unique nature of those properties.
    California--let me give you some comparable examples. 
California--the California movie office, for example, and their 
land use offices charges up to $600 per day for the use of 
their lands for filming. The BLM's fee schedule does not appear 
to be a deterrent for filming on public lands when BLM charges 
market rates. They are allowed to charge higher rates now, but 
the funds are not kept at BLM. They're returned to the Treasury 
so that they are not used for the improvement of BLM 
properties.
    Other land-owning governmental entities charge even higher 
fees than our Federal agencies. The Navaho Nation, for example, 
charges up to $2,000 a day for the use of Monument Valley, the 
site of many memorable films. Similarly, the city of Beverly 
Hills, in California, charges fees that exceed $2,000 per day 
in their city parks.
    Ironically, the National Park Service and the Fish and 
Wildlife, as you mentioned Mr. Chairman and Mr. Hefley, use to 
charge market rates for filming prior to 1948. And it is 
unclear, and I sort of am surprised that we can't answer this 
for you, but I have not been able to get an answer as to why 
that policy was exactly changed in 1948. But before 1948, when 
those fees were charged, it was no deterrent. There were still 
movies made on public lands, including ``Sea of Grass,'' 
starring Spencer Tracy; ``Yellow Sky,'' with Gregory Peck, and 
on and on.
    The Park Service and Fish and Wildlife are also concerned 
that their inability to charge fees may be attracting permit 
applications from filmmakers who seek other lands if fees were 
charged. These agencies were not set up to attract filming 
businesses. Yet, by prohibiting these agencies from 
establishing fees, the present regulations make park and refuge 
lands more attractive to filmmakers whose films could also be 
made on other governmental or tribal lands. H.R. 2993 would 
correct that anomaly.
    The authority in this bill would allow fees to be set based 
on a market value of the permit, as determined by the 
Secretary. And I think it's important, at this point, to point 
out--because I think this is a critical point, I've read Mr. 
Attaway's testimony--and there's concern about leaving that 
discretion with the Secretary in determining what the market 
rate is might lead to confusion or disparity amongst fees 
charged. And what I would tell Mr. Attaway and what I'd tell 
this Committee is how I think we ought to administer this and 
how the Secretary and I will administer this if you grant us 
this authority is it makes their--their complaint is a 
legitimate one. Hollywood ought not have to deal with 390 park 
superintendents and 300-plus BLM parks, you know, land 
superintendents, and 400 Fish and Wildlife superintendents--
it's just it would be chaotic. And so what we would propose to 
do if we had this authority is to hire or contract through the 
market process a Hollywood agent.
    The Smithsonian, where I recently was employed, has done 
this. They have employed Creative Artists to be their agent on 
behalf of the Smithsonian. We would seek to do the same for the 
Department of the Interior lands, and that way Hollywood 
filmmakers and producers would have one point of contact to 
approach the Department over. And then, that person obviously 
would understand the market rates and what the market would 
bear. They could distinguish easily between the size of the 
production, the potential value of the production, and we ought 
to let people in the private sector who understand that--we 
certainly don't--we ought to let them negotiate those rates and 
those rates would then be what the Department would inure.
    The critical component to that, though, at the same time, 
is we ought to protect the resources. And that's obviously--I 
know you share in that desire--is that how I would--we would--
conceive of this working is the agent, or producer or Hollywood 
company wanting to make the movie would approach the agent. The 
agent would then approach the park superintendent, who would 
have all of the same authority as they have now to either 
approve or deny the permit if they thought it was going to 
inhibit public use of the lands or do undue damage. And if the 
park superintendent, just as now, would have the same ability 
to turn it down. But if they said yes, we're OK at this time 
period and under these conditions, the agent would then go back 
and work with the Hollywood producer to negotiate what the rate 
would be, and then that rate would come back to the park for 
improvements for public uses and public uses of the land.
    So I think we can establish and use a market rate principal 
and let the market establish this and still solve the concerns 
that the movie producers and Hollywood would have in resolving 
this. And I would commit with you on doing that, working to do 
that.
    We support the provisions--I'm wrapping up, I apologize, 
Mr. Chairman--that would allow the fees to be collected and 
distributed similar to the recreation fee program. And I would 
specifically ask if we would like to include the Bureau of Land 
Management in this as well. The bill that's now drafted is 
specific to the Park Service and Fish and Wildlife, but I think 
it's critical that we add the Bureau of Land Management. And we 
would appreciate working with Mr. Hefley and the Committee on 
doing that because they're obviously a well-used situation. And 
it makes not sense--they also have needs to meet the increasing 
public recreation demands on their lands. The money ought to 
stay on those public lands as well, and that's what we would 
propose to work with you to do.
    So in closing, Mr. Chairman, we are extremely supportive. 
There are sort of three principles I think you've captured in 
this and that is: charging commercial rates that are set and 
determined by the market place; allowing the money to be kept 
in the place where it's earned, if you will, for public 
improvements on that land; and third is we would just request 
that when you do move this legislation, that you'd apply it to 
all Department of Interior lands. And we'd love to work with 
you.
    And so in closing, Mr. Natcher, would have said, ``this is 
a great bill, for the right reasons, by a true friend of the 
National Park Service, Mr. Hefley.'' And Mr. Chairman, we 
really appreciate it and thank you, Mr. Faleomavaega, for your 
kind comments.
    [The prepared statement of Mr. Berry may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Berry for your testimony.
    Maureen Finnerty, if I'm saying that right. Ms. Finnerty. 
You're correct.
    Mr. Hansen. The floor is yours.

  STATEMENT OF MAUREEN FINNERTY, ASSOCIATE DIRECTOR, PARK AND 
        OPERATIONS AND EDUCATION, NATIONAL PARK SERVICE

    Ms. Finnerty. Mr. Chairman, I am pleased to be here today 
to testify on H.R. 1728, the National Park Service 
Administrative Amendment of 1977.
    We support H.R. 1728 with the clarifications outlined in 
this statement. The bill before us today helps to ensure that 
integrity by providing agreement between the Park Service and 
the Congress on those criteria for establishment of new park 
areas and on a process where possible new areas that fail to 
meet those criteria will not be imposed upon the system.
    In 1976, Congress directed the NPS to monitor the welfare 
of areas that exhibit qualities of national significance and to 
conduct studies on those that have potential for inclusion in 
the National Park System. For the next 12 years--for the next 
several years, there was a congressional requirement that we 
study and forward a list of 12 potential new sites each year. 
Between 1981 and 1990, the Service undertook a few studies in 
response to specific instructions from Congress. Then, in 1991, 
the Service began once again to identify its own priorities, 
using a ranking system that considered significance, rarity, 
public use potential, educational potential, resource integrity 
and risks, public support, costs, availability of data, 
suitability, feasibility, and special initiatives.
    Our files contain more than 300 studies done since the 
1930's on areas that have not been added to the National Park 
System. Since the 1970's, only about one in four of the areas 
studied became the subject of legislation adopted by Congress 
to expand an existing park or create a new one.
    Our study process has been successful in determining 
resource significance, suitability, feasibility, and offering 
Congress a range of alternatives for protecting resources 
through partnerships that do not involve additions to the 
National Park System. We believe the best way to avoid 
inappropriate additions that do not fully meet the criteria for 
inclusion in the system is to continue to advance programs 
which foster alternatives.
    Our advisory board has recently reviewed our criteria for 
park lands and found them to be essentially sound. We intend to 
clarify and strengthen those criteria, as recommended by the 
board, in conjunction with an update of our management 
policies, scheduled for completion within the next year.
    These updated criteria would be used in conducting the 
studies of areas for potential addition to the system, as 
currently proposed in H.R. 1728. Of course, Congress will have 
to determine how these studies are used in developing 
legislative proposals.
    No study process or set of criteria will be successful in 
assuring the integrity of the National Park System if new parks 
are authorized without having studies completed or the criteria 
applied.
    Before concluding, I would like to express two concerns 
that we have with H.R. 1728. The first involves section (d), 
which directs the service to establish a new area study office. 
We do not believe it is necessary for Congress to direct the 
establishment of a separate new study office. We agree that 
studies need to be coordinated and conducted with some 
assurance that the criteria will be applied from a perspective 
of the National Park System, not just responding to local or 
regional interests. However, we currently seek to accomplish 
this by having an internal review process by all interested 
offices.
    Our second suggestion concerns the language in section 
(c)(2)(a) which addresses studies of areas potentially 
``possessing nationally significant natural or cultural 
resources or outstanding recreational opportunities.'' Based on 
the recent conclusions of the National Park System Advisory 
Board, we believe that areas under consideration for inclusion 
in the system must have true national significance in the 
categories of cultural or natural resources before we would 
address their merits as significant recreational opportunities. 
The system maintains a sufficient collection of recreational 
areas per se. We believe that areas solely providing 
recreational opportunities are more appropriately considered 
for state or local management when weighed against the full 
mission of the National Park Service. We do not believe that 
areas should be added to the National Park System based only on 
their values for recreation unless they also contain natural 
and cultural resources that meet standards for significance, 
suitability, and feasibility.
    In conclusion, Mr. Chairman, we support the bill. We like 
it. We have the two concerns that I've mentioned. We also have 
a few minor technical amendments that we'd like to work with 
you and your staff on.
    That concludes my statement. Thank you.
    [The prepared statement of Ms. Finnerty may be found at end 
of hearing.]
    Mr. Hansen. Thank you. Questions for this panel. Mr. 
Faleomavaega.
    Mr. Faleomavaega. My commendation to our good friend from 
Colorado for proposing these two pieces of legislation, Mr. 
Chairman. Just one basic question on the bill, 1728. You don't 
think that we're going to be having 300 and some park 
superintendents competing for the movie industry in terms of 
what would be the best? Does the legislation address that 
problem?
    Mr. Berry. I think, Mr. Faleomavaega, they----
    Mr. Faleomavaega. Since especially when they get to keep 
the money.
    Mr. Berry. Right. Right now, in other words, I don't know 
if because--I doubt that there will be a significant increase 
by park superintendents seeking this to occur.
    Mr. Faleomavaega. You're not going to have 370 movies going 
on at the same time.
    Mr. Berry. We don't foresee that happening, but what we do 
foresee is that what is already happening. In other words, 
there's already significant usage going on, on those public 
lands, and on all three--Park Service, Fish and Wildlife, and 
BLM land--that where that would go on, we would, at least, have 
something returning to the public. And the superintendents 
would continue to hold essentially the veto that they hold now. 
If they feel it's not an appropriate place, or it's detrimental 
to the mission of that park, just as they can now under this 
law, it would still--that authority would remain the same, as 
it would be our understanding, that they would be able to say 
no. So that I think what we're trying to develop here, and I 
think what Mr. Hefley's on to, is the two key points: keep the 
money back where it's made, earn some fair market rate for the 
usage that is already ongoing and provide some of what I think 
the motion industry has a legitimate concern and that is a 
focal point of where they can deal with, with somebody who 
understands their business and who will represent and be able 
to understand and talk with them and negotiate those points.
    Mr. Faleomavaega. Maybe I'm presenting an extreme view, but 
concerns soon that might be some of the parks will be closed to 
the inconvenience of the public that may want to continue 
visiting the areas in the park. And because the motion picture 
industry will say, well, we want to pay you half a million 
dollars for the next month, so we'd like to have the park 
closed while we film the movie. Is that--do you think we might 
encounter those kinds of problems?
    Mr. Berry. Congressman, absolutely not. The primary purpose 
of the parks is and will continue to be to serve the public, 
and there may be compromises that need to be made at certain 
points, but those will be carefully reviewed by each park 
superintendent or refuge minister or BLM state manager. And for 
those issues that become controversial, they always have the 
ability to get someone to back them up.
    But I don't think--we clearly would not want to be denying 
the public access to their lands in lieu of this, and we would 
work sensibly to not have that occur.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Colorado.
    Mr. Hefley. Thank you, Mr. Chairman, and thank the 
Committee--I mean, the panel. You know, it's wonderful, Mr. 
Chairman, to have two representatives of the administration 
coming and supporting a bill that I offer. I ought to quick 
while I'm ahead.
    [Laughter.]
    Mr. Hefley. And along with Mr. Natcher's example. In fact, 
Mr. Natcher gave me some wonderful advice when I first came 
here, and that was don't ever get involved in the tyranny of 
trying to make every single vote. And that was good advice and 
what a gentleman he was in this process.
    But we do appreciate your testimony and the amendments that 
you have suggested--if you would get your suggestions to us and 
we'd like to work with you to further refine this before we get 
to the full Committee.
    I was going to ask you about the history of how we got into 
this, and it seems like none of us really quite know, and so I 
won't belabor that. I do have a concern that we don't--and I 
think this was expressed by our Ranking Member here--that this 
not just be a way to ``oh, boy, we need more money for the 
parks, and so let's gouge.'' Somehow or other, I would hope 
that we would have a system whereby the movie industry would 
pay no more, no less than they would pay for, say, they want to 
use Jim Hansen's ranch and private property.
    Secondly, what about the liability question. Does this bill 
cover that or does our process now that we have cover that? Or 
do we need to do something else to cover that?
    Mr. Berry. Let me check on that, Mr. Hefley, because I'm 
not, I don't--it has represented to me that we are OK in that 
area, but let me double check on that before we answer you in 
final on that. And we will get back to you on that one, sir, on 
the liability issue because it's a legitimate question and we 
need to followup. And I think you've also made some good points 
in here, which I had in my testimony, but I didn't mention was 
about exempting news television, news reel productions, and 
having the beauty of a market, an agent, if you will, 
negotiating these things. We can give him guidance. There may 
well be productions on public television, or in the commercial 
market, that will also produce benefit to the Department. In 
other words, for tourism potential or other options that we 
might, the Department get out of it. And those are things that 
the market can negotiate and an agent can recognize and be 
aware of, and obviously that would lead to a lower rate. But 
trying to set one fee schedule, saying that you have 30 people 
here or 100 people here, and, therefore, they should be charged 
this much. I really think we ought to let the market determine 
that, and let people who understand the marketplace determine 
that. And that's what we propose to do.
    Ms. Finnerty. Mr. Hefley, if I might interject.
    Mr. Hefley. Oh, surely.
    Ms. Finnerty. Our current commercial filming policy, which 
is out now for public review and comment over a 60-day period, 
in addition to requiring permits for this activity, does have 
provisions in it for bonding and liability, depending on the 
circumstances. So that is the current situation as far as 
commercial filming.
    Mr. Berry. And I understand that's the same with BLM, and I 
want to check with Fish and Wildlife. So we will get back to 
you in terms of all them to make sure that that's covered so 
that you know.
    Mr. Hefley. Well, we certainly don't want to discourage 
movies from being made in our park system.
    Mr. Berry. Absolutely.
    Mr. Hefley. That's part of the enjoyment. Maybe some people 
who never get to visit a Yosemite, you know, can enjoy it 
through movie or television industry, and I think that's good.
    On the other bill, you know, it's been my concern for a 
long time, as you well know, for a long time that we often 
times put units into the park service because of who the 
Congressman who wants it in his neighborhood was. And we wanted 
to get away from that. We don't have enough resources to keep 
our parks up like we would like for them to be anyway. And so 
the units that are in the Park Service, we want them to be 
special. And is it your sense that we're moving in that 
direction with this legislation?
    Ms. Finnerty. Absolutely, Mr. Hefley, which is why we 
support it. We would--we have had criteria in place for a long 
period of time to sort of make judgments on how units come into 
the system. But having this codified and having it ensconced in 
legislation, I think, everyone understands the rules and will 
play by the same rules, and I think it will ensure, you know, 
and protect some of the concerns that we all have as far as how 
units get in.
    Mr. Hefley. Yes, I think you have had criteria in place. I 
think part of the problem is we haven't always paid attention 
to your criteria. That's our fault, not yours, so I would hope 
this would help.
    I think that's all I have, Mr. Chairman.
    Mr. Faleomavaega. Mr. Chairman, I ask unanimous consent. 
The gentleman from Minnesota, Mr. Vento, would like to submit 
his statement be made part of the record, and would also like 
commend his good friend, the gentleman from Colorado, as the 
chief sponsor of this legislation, H.R. 1728 that Mr. Vento is 
also a co-sponsor of this bill, and would like to commend Mr. 
Hefley for his authorship of the bill.
    Unanimous consent?
    Mr. Hansen. Without objection. So ordered.
    Mr. Faleomavaega. Thank you.
    [The prepared statement of Mr. Vento follows:]

Statement of Hon. Bruce F. Vento, a Representative in Congress from the 
                           State of Minnesota

    Thank you, Mr. Chairman for allowing me to testify in 
support of H.R. 1728, a bill I introduced with Mr. Hefley. 
Improving the management of our National Parks is an issue that 
continues to be very important.
    The National Park Service is charged with the management of 
the nation's most important, natural, cultural, historical and 
recreational resources. These areas are known throughout the 
world for their natural qualities, scenic beauty and historical 
significance. Each year, more than 260 million visitor days are 
accounted for by people from around the world to the areas 
which make up the U.S. National Park System. And this number 
continues to grow: there were 40 million more site visits to 
our National Parks in 1996 than in 1978.
    It is our obligation as policy makers to ensure that 
appropriate and outstanding resources are included in the 
National Park System and that parks currently in the system are 
managed effectively. In this spirit, I joined with my friend 
and colleague Joel Hefley in introducing this reform bill last 
year, a measure whose genesis stretches back nearly a decade.
    H.R. 1728 is very straightforward in its intent and 
results. At the beginning of each calendar year, the Secretary 
of Interior would submit to Congress a list of areas 
recommended for study for potential inclusion in the National 
Park system. The Secretary's list would give consideration to 
and recommend in-depth study of areas that have the greatest 
potential to meet the criteria for national significance, 
suitability and feasibility clearly enumerated by existing law. 
Importantly, after enactment of H.R. 1728, Congress would be 
required to specifically authorize the in-depth qualifying 
study of any area for inclusion into the National Park System.
    We all know that the Park Service for the past decades has 
had trouble meeting its most basic needs. H.R. 1728 will give 
Congress, the National Park Service, and the public an 
opportunity to comment on and debate potential new inclusions 
into the system based on at least the foundation of analysis 
and data. There would hopefully be no more back-room deals. 
There will be no more last minute riders to appropriations 
bills. In short, if we pass this bill, we will be treating 
these decisions with the respect and deliberation that they 
rightly deserve.
    I feel compelled to note that this bill does not mean that 
a single unit of the National Park System will be closed. There 
will be no commissions, no committees, no task forces--none of 
that sort of thing. This bill also does not prevent the 
National Park Service from studying areas that they believe 
have a high potential for inclusion in the National Park 
Service. It is important to mention that because, as we have 
seen, the potential for misinformation and misunderstandings 
concerning versions of this measure have been unhelpful and 
unfair.
    I am encouraged that we are finally re-opening the debate 
on important Parks issues and am optimistic that this measure 
represents common ground. I have seen on the schedule that next 
month we'll have an opportunity to hear testimony on 
concessions policies. These issues both are important to our 
parks and other land-managed units. There are, however, 
numerous other issues facing the National Parks that we should 
deal with in this Congress. Things like park overcrowding, air 
and water pollution, historical and cultural structures that 
are literally falling apart, and the intense inappropriate 
development in and around parks that is--to say the least--
startling and counter to the very ideals upon which the 
National Park System was established.
    Major monuments at the Gettysburg National Battlefield in 
Pennsylvania are literally disappearing because of acid rain, 
and the Park Service lacks the resources to undertake any 
adequate preservation activities. And I just read the other day 
that it took a court order to prevent the construction of a 
gigantic land fill literally in the shadow of Joshua Tree 
National Park in California. These are issues that we need to 
discuss in this Committee, Mr. Chairman. The natural legacy of 
our children and grandchildren depends upon it. These are not 
issues of a partisan nature--rather again matters in which 
common ground should be attainable. Mr. Chairman, certainly 
oversight is in order regarding these issues.
    I do appreciate your holding a hearing on this important 
legislation. It is an important start to what I hope will be an 
ongoing discussion of how we're going to protect and maintain 
our National Parks in the Twenty First Century. I look forward 
to working on this with you and Mr. Hefley as we close out the 
105th Congress.

    Mr. Hansen. Thank you very much.
    We appreciate your excellent testimony. I can see this is 
going to be very interesting. This thing on the administrative 
part will be always interesting as it is. We'll see--we 
appreciate positive attitude on these bills, and Mr. Berry, 
congratulations for coming forward, and Ms. Finnerty, thanks so 
much for being with us.
    We'll excuse you and go to our third panel. Panel No. 3 is 
Fritz Attaway, Senior Vice President, Motion Picture 
Association of America, Government Relations General Counsel; 
William Chandler, Vice President of the Conservation Policy, 
National Parks Conservation Areas; and Lee von der Esch, 
Executive Director of the Utah Film Commission.
    We appreciate you appearing before us. You know the rules 
here. You have any heartburn or sudden indigestion, let us 
know. We're pretty lenient today. We're not that big a 
schedule. Mr. Attaway, we'll start with you, and we'll 
recognize you for 5 minutes, sir.

   STATEMENT OF MR. FRITZ ATTAWAY, SENIOR VICE PRESIDENT AND 
    GENERAL COUNSEL, MOTION PICTURE ASSOCIATION OF AMERICA, 
                      GOVERNMENT RELATIONS

    Mr. Attaway. Thank you very much, Mr. Chairman. Mr. 
Chairman, members of the Subcommittee, I appreciate your giving 
me this opportunity to appear here before you to testify in 
support of H.R. 2293. The national parks and wildlife refuges 
are frequently highly desirable locations for filming movies 
and TV shows and other audio-visual works. And, because of 
this, they offer a potential source of Federal revenues from 
producers willing to pay reasonable fees for the privilege of 
filming on Federal lands.
    Unfortunately, at the present time, the production 
divisions of MPAA member companies are confronted with diverse 
rules, standards, and requirements that make using parks 
burdensome and unattractive for television and motion picture 
production. As a result, our companies often seek out private 
lands, sometimes State parks, and sometimes locations outside 
of the United States.
    The motion picture industry enthusiastically supports the 
desire, which I believe is reflected in H.R. 2993, to encourage 
filming in the national parks and wildlife refuge systems in 
return for reasonable fees that will help remove some of the 
burden on the taxpaying public. I am here to declare that 
support, and to suggest some amendments to this bill that, in 
our view, will contribute to the goals it seeks to achieve.
    H.R. 2993 is designed to help the parks earn revenues on 
motion picture production by establishing a reasonable fee 
schedule that would benefit both the parks and the film 
industry. We support that objective. We particularly support 
the provision that would direct 80 percent of filming fees to 
the park in which the filming takes place. This not only would 
relieve some of the burden on taxpayers, it would also provide 
a very meaningful incentive for park administrators to 
encourage filming as a means to fund park expenditures, and 
create a positive, synergistic relationship between filmmakers 
on one hand, and park employees and patrons on the other. We 
strongly endorse this provision.
    H.R. 2993 would require that film permit fees be 
established by the Secretary on a case by case basis, at fair 
market value. These provisions do present some problems that I 
hope can be corrected before this bill becomes law.
    Filmmaking is a business as well as an art. On the business 
side, filmmakers, like any other business, require transparency 
and predictability. Filmmakers need to have clear and precise 
information that tells them what will be expected of them if 
they chose to film on public lands. And they need to have some 
level of assurance that they will be allowed to film if they 
meet specified terms and conditions.
    Establishing fees on a case by case basis would be 
antithetical to the uniformity and standardization that is 
essential to making the parks hospitable to filming. A more 
workable process would be for the Secretary to promulgate a fee 
schedule that applies to all parks on a national level, of 
course, taking into account factors such as accessibility, 
environmental protection, public safety, and other matters that 
affect the cost of filming to the government in particular 
types of locations.
    Fair market value is an imprecise standard for determining 
a reasonable fee for filming on public land. What is the 
relevant market? Would the temporary use of filming be compared 
to a concessionaire setting up a stand in the park? Would it be 
compared to the use of private land, on which there are no 
hours or location restrictions, no government monitoring, no 
wildlife, vegetation, or cultural resources constraints, no 
visitors, et cetera? Would it be compared to grazing or mining? 
It appears to me that none of these measures provides a 
comparable standard for establishing fair market value for the 
purpose of filming.
    We suggest that a reasonable fee for the purpose of filming 
should be based on the number of people in the filming party, a 
very reliable predictor of the size and complexity of the film 
project and the impact it will have on the resource. On a given 
day, ``Lethal Weapon IV'' may have 35 people on the special 
effects crew alone; ``Titanic'' had 45 people in costuming 
alone. A smaller film or second unit may not have that many 
people in the entire crew. And, of course, a commercial would 
have far fewer people.
    The National Forest Service has already devised a fee 
schedule that is based on the number of persons taking part in 
the filming. There is an application fee, and a graduated fee 
schedule, depending on the number of people involved. In 
addition, there is a unique site fee for certain unusual 
locations. Most photographers and film companies find this 
schedule reasonable.
    MPAA strongly recommends that the Secretary of the Interior 
be directed to delegate the task of establishing a reasonable 
fee schedule to a committee of Federal land managers, such as 
NPS, BLM, and Forest Service personnel. If all Federal lands 
were handled uniformly, the benefits to the government and the 
motion picture and TV producers would be compounded.
    In closing, I commend Congressman Hefley for addressing 
this very important issue, and urge this Subcommittee to 
consider amendments to H.R. 2993 that would correct the 
problems I have mentioned.
    Thank you very much.
    [The prepared statement of Mr. Attaway may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Attaway.
    Mr. Chandler, National Parks and Conservation Association, 
we always appreciate your input. I'll turn to you, sir.

STATEMENT OF WILLIAM CHANDLER, VICE PRESIDENT FOR CONSERVATION 
      POLICY, NATIONAL PARKS AND CONSERVATION ASSOCIATION

    Mr. Chandler. Good morning, Mr. Chairman and members of the 
Subcommittee.
    Thank you for inviting us to testify today. I would like to 
say at the outset that, in general, NPCA supports this 
Subcommittee's intent to bring more discipline and structure to 
the new area study process, and to charge fair market fees for 
commercial filming in our national parks. We appreciate this 
opportunity to present our testimony, and we would like to work 
with you to shape final bills that we can affirmatively 
support.
    I would like to reverse the order of my testimony and first 
deal with the filming issue if I might, Mr. Chairman, and then 
come back to what we consider to be another very important 
bill, and that is the new area study process.
    Someone said this already, but I would like to mention it 
again at the outset: There is no right to film in a national 
park or a national wildlife refuge. To the extent that the 
filming industry can use these areas without damaging them, 
without inconveniencing visitors unduly, and so forth, then 
certainly those kinds of activities can be permitted to take 
place. But there is no right to do this. It must be a privilege 
that's awarded under a permit.
    The National Parks have provided wonderful backdrops to 
both blockbuster films and forgettable ``B'' movies. But I 
would like to point out, Mr. Chairman, as I think you already 
know, every one of these films, whether it made money or not, 
provided almost nothing to the parks in return. As the law now 
stands, the Park Service is authorized to recoup only the cost 
of monitoring the filming, a negligible application fee, and 
the cost of any damage remediation. For example, the film 
industry paid $300 to the Park Service to use Yellowstone for a 
portion of the first ``Star Trek'' film. That film grossed $50 
million. You probably didn't hear any complaints from the 
filming industry about how onerous that fee was. By comparison, 
the same scene filmed today on private property could cost up 
to $8,500 a day. So, clearly the importance of setting a fair 
market fee is important, and I would like to address that issue 
right now.
    We would recommend that the bill pursue the goal of setting 
the fair market fee, but we believe that the bill needs to be 
rewritten to make sure that full cost recovery occurs. For 
example, right now the Park Service incurs a bunch of indirect 
costs just checking out whether or not they wish to issue a 
filming permit to dozens and dozens of companies that explore 
this possibility preliminarily. Those costs are never 
reimbursed to the Park Service.
    Likewise, there are a number of other costs that are hidden 
right now, for example, permit and site preparation fees, 
preparation of guidebooks, phone calls back and forth. We 
believe that Mr. Hefley's legislation ought to specify that all 
costs incurred by the Park Service, and the Fish and Wildlife 
Service for that matter, for running a film permitting program 
be recovered as a ``minimum'' fee.
    As to establishing a fair market value: we think that the 
national parks ought to be considered more akin to a private 
landowner, allowing his land to be used. I thought the notion 
of Assistant Secretary Berry about hiring an agent who knows 
the market to work with the filming industry is an interesting 
one. Certainly, that agent would be familiar with the wide 
range of fees now being charged to film companies in different 
venues. I will say right now, though, Mr. Chairman, that we do 
not agree that other public lands offer comparability of value 
in terms of trying to set that value. Many of these areas are, 
in essence, given away to the film companies to draw them in so 
that collateral business can be generated in the adjacent 
communities. So, fair market value to us means what they would 
have to pay to a private sector person, as you mentioned, Mr. 
Hefley, to use private land.
    Finally, effective penalties. We do not think that the 
penalties set in the bill set are tough enough. Right now, the 
bill says it can't exceed 200 percent of the fee that would 
have been charged had a permit been issued. I'd like to give 
you an example, Mr. Chairman, of a situation that occurred in 
your own State. Bryce Canyon. The Park Service got a call from 
a film company who wanted to do a TV commercial. The Park 
Service started trying to discourage them, saying, ``Hey, we 
really don't want you flying helicopters below 2,000 feet in 
the park, and maybe you could find another location.''
    The next thing the Park Service knew, a ranger witnessed 
three helicopters swooping into the park. A stunt man bungee-
jumped out of a helicopter over Bryce Canyon without a permit. 
And when Park staff met the film crew at the airport, the film 
crew was extremely belligerent saying that the Park Service 
didn't want to work with them. Therefore, the film crew just 
did what they wanted. To deter that kind of abuse, we believe 
that you should seek treble the amount of the permit value for 
anybody who violates these regulations, and also that any legal 
costs incurred by the government in policing these permits also 
be recovered.
    I would now like to turn to a very important issue of the 
new area park study process. We strongly support the intent of 
your bill, Mr. Hefley, to come up with a stronger, more 
deliberative process for authorizing new area studies. I'm sure 
you're familiar with the statistics right now that point out 
that in a 6-year period between 1989 and 1994, of 78 new area 
launched by the Park Service, 44 were directed by the 
Appropriations Committees, 11 by authorizing legislation, 11 by 
the Park Service, and 12 by the Department of the Interior. 
These facts tell us that we need a more intellectually rigorous 
process for launching new area studies. I am concerned, though, 
Mr. Chairman, that the bill needs to get a lot more specific 
regarding the process of how the list approval process is going 
to work.
    For example, is this Committee going to authorize the 
annual list submitted by the Secretary as a package? What 
happens if you don't act with dispatch on this list? Are these 
studies just going to sit there and not get done? We would hate 
to see a process set up where the study process essentially 
grinds to a halt because no action occurs on the Hill. I know 
that in many cases, Congress has given itself a date certain, 
and if they don't act by that date, then the administration 
recommendation is deemed to be approved. And that seems to be a 
fair way to proceed in this particular circumstance as well.
    I will conclude my testimony on that point, Mr. Chairman, 
and will be happy to answer any questions.
    [The prepared statement of Mr. Chandler may be found at end 
of hearing.]
    Mr. Hansen. Thank you. Thank you very much. We'll look 
forward to the suggestions that you have brought up. We're 
grateful that the Great State of Utah sent a representative 
here. We'll turn to you now.

STATEMENT OF LEIGH VON DER ESCH, EXECUTIVE DIRECTOR, UTAH FILM 
                           COMMISSION

    Ms. von der Esch. Thank you, Mr. Chairman, members of the 
Subcommittee. Thank you for giving me an opportunity to comment 
on H.R. 2993.
    I concur with Mr. Attaway's points that the National Parks 
and Wildlife Refuges are frequently the location of choice for 
filming movies, TV shows, and other audio-visual works. As 
Executive Director of the Utah Film Commission, I have scouted 
and facilitated the use of Federal lands, including our five 
national parks, for over 13 years, and previously worked on 
location on public lands for the motion picture industry. Many 
of you in the audience and, Mr. Chairman, you also mentioned 
today the number of movies that are synonymous with Utah. I'd 
be remiss as a woman if I also didn't mention ``Thelma and 
Louise'' as well as John Wayne and John Ford.
    Having worked with our Federal land managers in the 
national parks, the Forest Service, and the Bureau of Land 
Management for many years, I am very familiar with the 
difficulty of the land managers in meeting the demands of the 
public, which increases in its use yearly of the public lands, 
balanced against the need to protect and preserve the land and 
capital infrastructure, with limited financial and personnel 
assistance. Again, I concur with Mr. Attaway that the motion 
picture and television production activities can offer a 
potential source of Federal revenues, if reasonable fees and 
filming regulations can be created. And I applaud any efforts 
and your desire to make this occur.
    A film commission's purpose is to serve as a marketing 
agency for its respective governmental jurisdictions, to 
attract the motion picture and audio-visual works to use those 
locations in their jurisdictions as backdrops to production. We 
view this activity as a resource sustaining activity, highly 
lucrative to the local economies, particularly in rural areas 
largely made up of Federal lands. Our job is to facilitate the 
production activity, which in most instances has minimal impact 
to the area, and which in all instances should be mitigated. 
The motion picture industry is one that pays its own way.
    As state film commissioners, and each state has one, as 
well as provinces, regions, and countries throughout the world, 
we share the concerns of the production community, as well as 
the challenges in securing national parks as locations for 
filming. We also face diverse rules, standards, and 
requirements that can make parks burdensome and unattractive 
for television and motion picture production, and consequently 
see us lose jobs and purchase of goods and services to other 
jurisdictions and locations outside of the United States. As 
past president of the Association of Film Commissioners 
International, I share the frustration of my fellow film 
commissioners in the United States, with the regulations, and 
know that other countries, such as Canada, have made filmmaking 
in their national parks possible.
    I support your desire reflected in H.R. 2993 to encourage 
filming in national parks in return for reasonable fees that 
can bridge the financial gap of service and land needs and help 
remove some of the burden of the taxpaying public.
    This is a win-win opportunity. In addition to additional 
revenue for our parks and land agencies is the opportunity to 
create a synergy with the production community during filming--
land managers will see the benefit directly to their areas if 
the change to retain more of the fees locally can be 
accomplished. And there is a proprietary feeling that can take 
place within the production community, which I'll just mention 
briefly.
    We had Disney shooting in the state this last summer, 
Congressman. They were shooting a production called ``Meet the 
Deedles.'' In addition to the fees that were charged by the 
Forest Services, one of the location managers asked the Forest 
Service ranger, why is this campground closed. He said because 
we need to put in handicapped access. He said, we'll add it. 
We'll do that in addition to paying our fees while were there. 
And there was a bridge that was washed out. It was a real 
feeling of ownership, and I think that takes place and can take 
place more under your bill.
    I agree with Mr. Attaway's concern about ``case by case'' 
and ``fair market value fees.'' Having facilitated production 
for many years, I believe there are three major needs in the 
fees and regulations which should be met. They are clarity, 
consistency, and speed.
    The rules and fee structure should be clear to all using 
the public lands.
    A fee schedule, as suggested by Mr. Attaway and currently 
used by the Forest Service, should be consistent from 
jurisdiction to jurisdiction. Common guidelines and procedures, 
given different mandates of the different agencies, followed by 
all the land management agencies would be helpful.
    And I think if the reasonable fees are paid and the 
consistent fees and regulations are there, it should enable the 
producer to expect processing of film permits on a more timely 
basis. This is a very creative and artistic undertaking, and 
the regulations require weeks for processing. And in an 
industry that's dependent on the cooperation of unpredictable 
El Nino weather, flexibility for changes--artistic, logistical, 
or financial--are almost impossible. And actually, we have 
tried to move locations and save the land, and because it was 
not permitted 60 days in advance, the company on ``Geronimo'' 
moved 80 miles, with 300 crew people because there was no 
flexibility in the permitting.
    I share the concern about the penalties for the violations, 
and hope we can revisit this area.
    I thank you for the opportunity. It is a passion of mine to 
protect the land. I have hiked much of Utah. I enjoy its 
beauty. As a film commissioner, we don't want damage done; it's 
the resource that we protect. And we hope that we can work with 
our Federal agencies to contribute to the economy and also the 
betterment of the land for an industry that should only take an 
image when it leaves.
    I'm sorry I ran over, and thank you very much.
    [The prepared statement of Ms. von der Esch may be found at 
end of hearing.]
    Mr. Hansen. Thank you very much.
    We'll turn to the gentleman from American Samoa.
    Mr. Faleomavaega. Mr. Chairman, I'd like to defer my time 
to the gentleman from Minnesota, since I know that----
    Mr. Hansen. He yields to the gentleman from Minnesota for 5 
minutes.
    Mr. Vento. Mr. Chairman, I regret that my flight was not 
more timely and appreciate these are, I think, all three, 
important measures. I have joined Congressman Hefley in the 
introduction of the National Park Administrative Amendments 
that provide for a procedure where the National Park Service 
would recommend studies and action on the part of our Committee 
to authorize such studies. I think this is a much needed 
remedy. Obviously, this is a good bill--in fact, I think, a 
better bill than a few years ago, when it was not successful. 
But, in any case, I think it is now down to a point where it 
has removed--I hope, hopefully--any controversy that would 
exist. I think we can look more closely at the process. I think 
clearly this would, I think, set up an opportunity for our 
Committee and for all the committees to have the information 
they need before they act on these sites. I also believe the 
review of the matter concerning filming and the fees for that 
are important. Up until this point, it's been a user, but I 
think you have a classic debate here. I listened to the witness 
from Utah that's on this panel, and I don't see my agenda 
before me right now, but the--one of the concerns, of course, 
is that the--von der Esch--is that right?
    Ms. von der Esch. Yes, that's correct.
    Mr. Vento. Thank you for your testimony. One of the issues, 
of course, is that very often that by providing an opportunity 
for filming and sharing this without charging, we basically 
have an opportunity to spread the word about the parks and the 
availability. Whether or not, we, in fact, get the credit or 
whether or not there's a recognition, I guess, we're talking 
about a Walt Disney film with somebody on Mars and they're 
filming. I think she said it was Utah, Mr. Chairman.
    [Laughter.]
    Mr. Vento. Didn't want to pick on Utah.
    Mr. Hansen. Land of diversity.
    Mr. Vento. But it may have been Idaho. We, in fact, have 
some moon names, I think, given to craters of the moon in 
Idaho, Mr. Chairman. But what about that factor? I mean, if 
these fees--I think you talked about the goodwill that exists 
in terms of it's nice to come in and repair a handicap. But on 
the other hand, we're obviously being pushed in terms of 
maintaining these resources and some sort of reasonable fee 
would be appropriate, but do you think that that may discourage 
some of the filmmakers from actually using these backdrops?
    Ms. von der Esch. OK, if I may.
    Mr. Vento. I'm asking you the question. It's a long way to 
it, but----
    Ms. von der Esch. I think that it's a matter of what the 
market could bear. As Mr. Berry said, the notion of a national 
Hollywood agent, if you will, is an interesting one. But those 
of us as state film commissioners are actually serving for an 
agent in our area. I don't think you're going to chase away a 
producer who wants the signature location, which is, I think, 
why the Navaho Nation can charge what was quoted earlier, of 
Monument Valley and can only have that.
    Where we run into problems is when there are a half a dozen 
different areas worldwide where a producer can film a movie. 
I'm think currently, and I believe the Congressman knows this, 
``Ghostwriters in the Sky.'' It's a 20th Century Fox 
production, they have been wringing their hands and running 
into regulations within the BLM, which have been under revision 
and consideration for 8 years, and we can't get them acted on. 
And it's not the money that they're concerned about. It's the 
regulations, the hoops that they have to go through in order to 
get the permit. And I had a producer say in the meeting with 
our State BLM director, this movie will get made. It may get 
made in Australia because we can't wait 6 months for the permit 
to go through.
    I think fair and reasonable fees should be required, and 
they will pay their way. There's no question about that.
    If I may, Mr. Chairman, to the gentleman from Samoa. You 
raised the question about would we ever--because we're 
marketing our state--recommend closing of park. Certainly not. 
I recall an instance where I had a commercial producer ask for 
a permit Easter Week, and Congressman Hansen knows how busy 
Zion National Park is Easter Week. He called me on a Friday 
night. The park superintendent wouldn't cooperate. He said, 
would you get the help. Would I get the Governor's help. I 
said, sir, that is the busiest week in Utah for Zion National 
Park. I actually called the park superintendent and when I got 
through telling him what the producer in terms of the 
unavailability of his and how inconvenient it would be, the 
park superintendent said, could you tell everybody that calls 
me because you understand what the problems are with our local 
area.
    Mr. Vento. Well, I appreciate your answer and response, but 
there is a dilemma here in the sense that we have committed to 
permit and other types of use of BLM or other public lands, and 
certainly for parks, obviously, in terms of visitation. And it 
would be better if it would all come, if there is an off season 
any more. But, yes, the concern is that there are a lot of--
there's a big crew that goes out there in the wilderness area. 
They have to have the--we have to make certain that they don't 
leave behind serious contamination or other problems in terms 
of these areas. We have competing uses. They want to basically 
limit--you know, they don't want the cattle in that area, they 
don't want other activities going on when they're doing the 
film. So these are they--these are not unreasonable, but I 
think that there's hopefully we could streamline the process 
and, along the lines of this bill, facilitate this. Filmmaking 
is a big industry in my State of Minnesota as well.
    And you had some further response.
    Ms. von der Esch. Just if I may, sir. There have been 
instances where you evaluate what the project is, and we have 
asked for cash bond; certainly certificate of insurance is with 
every project. But we've asked for cash bond upwards to 
$60,000, $70,000, $100,000 to make certain that if there is 
mitigation that is required before the company's bond is 
released. It is taken care of. And there are competing 
interests. I couldn't agree more, and the do offer some more 
advertising, if you will. But it does offer an opportunity to 
bridge the gap of the financial resources in our parks right 
now to collect this money.
    Mr. Vento. Well, thank you.
    Mr. von der Esch. Thank you. I'm sorry.
    Mr. Vento. Sometimes I find that those who are using the 
public lands are not all that cooperative to yield their use to 
something important something important like Hollywood.
    Mr. Hansen. Of course. Mr. Chandler, did you want to 
respond to Mr. Attaway?
    Mr. Chandler. Thank you, Mr. Chairman. I just would like to 
say that certainly a process that provides clarity, 
consistency, and speed, which is, I think, what the film 
industry representatives said they needed, is not anything that 
we would object to. That's common sense. That's good business 
practice.
    There are instances, though, where filming in a park, or in 
a refuge, may not ever be desirable at a particular point in 
time, and the park service and the wildlife service need to 
have the ability to say no when they don't think it's 
appropriate for the park. And if these film companies have to 
go elsewhere, so be it. I think this has to be very clear 
principle. The national parks were established to protect 
resources unimpaired for future generations of Americans. And I 
will tell you that damage has occurred in parks from time to 
time. I'm sure it's happened in other areas as well. So we need 
a system that's going to limit the number of those instances to 
the bare, bare minimum. And if we do have to mitigate 
something, of course, we need a bond. We need to be able to 
come back to the film company and collect to fix what they have 
torn up.
    Mr. Hansen. Mr. Attaway, did you want to respond?
    Mr. Attaway. Mr. Chairman, I think we're in violent 
agreement here. Clarity, consistency, and speed--that is what 
we're looking for. If you're a producer and you've got a $30 
million film to make, you can't not know whether you're going 
to get a permit, how long it's going to take, what the rules 
are. You have to know in advance what the rules are, so you 
know whether you can comply with them, and if you do comply 
with them, you need to know you're going to get the permit. 
This is not a money issue.
    Mr. Hansen. Mr. Hefley.
    Mr. Hefley. Thank you, Mr. Chairman, and I'm glad that Mr. 
Vento arrived because Mr. Vento also has been working on this 
whole issue, particularly the parks bill, for a long, long 
time. And when we had H.R. 260 several years ago, and were 
being by the administration and trashed by your organization, 
Mr. Chandler, Mr. Vento didn't cut and run. And I've always 
really appreciated that. And I appreciate all the witnesses. I 
think we've had exceptionally good witnesses today. I will say, 
Mr. Chandler, your organization did lose some credibility over 
that H.R. 260. It was your organization that told us that it 
was the greatest piece of park legislation since the generic 
bill, since we created the Park Service. And then I think 
somewhere along the line, you decided, you know, for an 
organization like yours to fund itself, you need boogeymen, and 
this was a boogeyman. And you made it, along with the 
administration, a park closure bill, which it never was. I hope 
you realize lots of contributions from that, but it did lose 
you some credibility.
    I--Mr. Attaway, I'm interested--we want consistency. We 
want you to know what you're going to--what you're getting into 
when you ask for these locations. And you object to the case by 
case kind of thing. And certainly, and you point this out, 
there's a great deal of difference between filming ``Ben Hur,'' 
with a cast of thousands, a Cecile B. DeMille's production, and 
filming a movie like ``Cliffhanger,'' which was supposedly set 
in Colorado, but I don't think it was. I don't know where those 
mountains came from, but they were beautiful. And there was a 
relatively small crew.
    Is it your contention that we should go with the Forest 
Service plan based strictly on number of people involved in the 
production of that segment? Or is it--would there be some 
consideration for things that might be a little unusual, like 
the helicopters down in Bryce Canyon, or if you do a plane 
crash scene. I don't know--something that, you know, would be 
unusual. How would you--would you do it strictly on numbers or 
would there be other things considered?
    Mr. Attaway. We think the size of the crew should be the 
primary factor in determining the fee. But, of course, there 
are other factors. Unique sites, in terms of accessibility, in 
terms of the fragility of the environment, they should be taken 
into account. And, of course, the direct costs of the filming. 
If the filming requires a large number of park personnel to re-
route traffic or to do other things of that nature, of course, 
that should be taken into account in establishing the fee.
    Mr. Hefley. So if you're filming a ``Patton'' and you've 
got tanks running across the countryside, that might be taken 
into consideration in terms of the fee, as opposed to how many 
people were in those tanks and filming crews?
    Mr. Attaway. I certainly would not object to being charged 
a fee that requires us to put the land back in same shape that 
we found it. I think that's a given.
    Mr. Hefley. What about the economics of locations? Is there 
some way that the film industry determines what is too much, 
and no, we're not going to go there because we just can't 
afford it. Is it based on a percentage of the cost of 
production? What are the economics?
    Mr. Attaway. Well, 2 months ago if you had invested in the 
``Titanic,'' you would have definitely said, yes, there's a 
point where it's too much. Now, you might not say that. Of 
course, every film production is a separate business, and costs 
are a consideration. I think, in terms of setting fees for 
filming in the national parks, you not only have to take into 
account the cost to the park of the filming and the desire of 
the park to make some money, but you also have to consider the 
competition. There are other places to film. There's private 
land. There's State parks, and there's the possibility of 
filming abroad.
    So I think you want the fees to be competitive. You don't 
want to drive producers away.
    Mr. Hefley. How do you feel about what was suggested by the 
representative from the Utah Film Commission about in-kind 
contributions being a part of a fee schedule? I could see 
instances where, you know, maybe there's a deteriorated bridge. 
The Park Service doesn't have money to fix that bridge. You 
say, we'll fix it and we'll use it and then it's yours. Should 
that be a part of it or should that be completely separate from 
a normal fee schedule?
    Mr. Attaway. I think it should be separate because that, to 
me, that would invite the very kind of arbitrariness I'm trying 
to avoid.
    Mr. Hefley. Well, let me suggest to each of you, any 
suggestions that you've made for amendments if you would get 
those to us, we would appreciate it, and we'll see what we can 
do.
    Mr. Attaway. Thank you very much.
    Mr. Hansen. The gentlelady from the Virgin Islands.
    Ms. Christian-Green. No questions, Mr. Chair.
    Mr. Hansen. The gentleman from American Samoa, do you have 
something that are just dying to say?
    Mr. Faleomavaega. Mr. Chairman, I want to thank the members 
of the panel. I think both Mr. Vento and Mr. Hefley have 
adequately answered the questions that I had. And I would 
sincerely like to ask our friends to do submit suggestions on 
how we can improve this legislation, so we can move forward 
with it.
    Thank you, Mr. Chairman.
    Mr. Hansen. We thank the panel. Excellent testimony. Good 
testimony. Interesting bills we have before us today. All of 
those will create some controversy. I concur with my 
colleagues: if you have these things, work them out with us, 
seeing them, that's about the only way we can do it.
    And this hearing now stands adjourned.
    [Whereupon, at 12:01 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
Statement of Sandra Key, Associate Deputy Chief, Forest Service, United 
                    States Department of Agriculture

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to be here today to present 
the Administration's views concerning H.R. 2223, amendments to 
the Recreation and Public Purposes Act to transfer National 
Forest lands to education agencies. I am accompanied today by 
James B. Snow, Deputy Assistant General Counsel, Department of 
Agriculture.
    The Recreation and Public Purposes Act of 1926 (R&PPA) is 
an authority of the Secretary of the Interior administered by 
the Bureau of Land Management (BLM). Essentially, R&PPA makes 
public lands available for campgrounds, schools, fire stations, 
parks, and other public uses. Lands can be leased or patented 
by the BLM to States, counties, municipalities or to nonprofit 
corporations and associations based on a pricing formula. 
Significantly, the R&PPA does not apply to certain categories 
of land, including the National Forest lands, the National Park 
System, the National Wildlife Refuge System, and other lands 
withdrawn for certain resource values. H.R. 2223 would amend 
R&PPA to include National Forest land within the categories of 
land available for disposal by the Secretary of the Interior.
    While the Department of Agriculture supports the objective 
of making Federal lands available in certain circumstances for 
public purposes, we oppose the bill.

Concerns about H.R. 2223

    We have several serious concerns about the provisions of 
H.R. 2223. First, it is unnecessary since there is existing 
authority available to the Secretary of Agriculture to make 
land available for educational purposes. Second, it would move 
the disposal of National Forest lands to the auspices of the 
Secretary of the Interior by making disposal of National Forest 
lands subject to the R&PPA and would thereby complicate 
decisionmaking about the appropriate uses of National Forest 
lands which is generally accomplished through the forest 
planning process under the National Forest Management Act 
(NFMA). Third, it would pemmit the disposal of National Forest 
lands for less than fair market value.
    First, including disposal of National Forest lands for 
public purposes under R&PPA is unnecessary because the 
Secretary of Agriculture has existing authorities to 
accommodate public uses through permit, lease, exchange and 
limited disposal authorities. For example, under the Townsite 
Act, the Secretary of Agriculture may convey, for fair market 
value, up to 640 acres of land to established communities 
located adjacent to National Forests in Alaska and in the 
contiguous western states. The Sisk Act of 1967 provides the 
Secretary of Agriculture other authorities to exchange lands 
with states, counties, or municipal governments or public 
school districts for lands or a combination of lands and money. 
The Sisk Act is currently limited to the conveyance of 80 acres 
that were under permit to such entities as of 1983.
    In addition to the Townsite Act and the Sisk Act, the 
Secretary of Agriculture has the ability to exchange National 
Forest lands with State and local governments. Lands of equal 
value may be exchanged or, if there is a disparity of values, 
values may be equalized by a cash payment generally up to 25 
percent of the value of the land being exchanged.
    The Department's second concern is that making National 
Forest lands available for disposal under R&PPA would 
complicate decisionmaking about the disposal of National Forest 
lands by moving it from the local level of the Department of 
Agriculture to another Cabinet-level department. Decisions 
about the appropriate uses of National Forest lands and 
resources are arrived at through the forest planning process 
under the National Forest Management Act (NFMA) and the 
National Environmental Policy Act (NEPA). Under NFMA and NEPA, 
the public is extensively involved in decisions of the 
appropriate uses of lands and resources and the environmental 
impacts of planning decisions are disclosed.
    During this process, local Forest Service officials work 
closely with State and local governments to identify their 
concerns and needs for land and to identify lands appropriate 
for land ownership adjustments. The exchange or use of any 
particular National Forest lands for public purposes are 
matters best handled between the local National Forest offices 
and the affected communities. To involve the Department of the 
Interior in the disposition of National Forest lands would 
significantly--and unnecessarily--complicate our relationships 
with State and local governments and potentially undermine the 
NFMA decisionmaking process. In addition, amending R&PPA to 
include National Forest lands would be an added administrative 
burden to our colleagues in the Bureau of Land Management.
    The Department's third objection to H.R. 2223 as drafted is 
that it would permit the disposal of National Forest lands for 
less than fair market value. There are compelling public policy 
considerations for requiring that the taxpayers of the United 
States receive fair market value for the sale, exchange, or use 
of National Forest lands. Unlike the R&PPA, all of the existing 
authorities of the Secretary of Agriculture require fair market 
value for exchanges or sale of National Forest lands. Indeed, 
the policy direction in recent decades has been toward 
maximizing return to the public for the value of lands conveyed 
out of Federal ownership. We object to legislation that would 
open the door to less than fair market value consideration for 
the disposition of National Forest lands.

Approaches to Consider

    Mr. Chairman, we believe that we can meet the needs of 
local entities and provide a fair return for the value of the 
resources to taxpayers through amendments to the Secretary of 
Agriculture's existing authorities. For instance, if we looked 
at amending the Sisk Act, we might consider eliminating the 
current limitation that requires that the lands proposed for 
conveyance must have been under permit for public use as of 
1983. In addition, we might look at approaches like installment 
payments under existing authorities which could substantially 
reduce the financial impact of acquisitions for small 
communities.

Closing

    Mr. Chairman, while the Department of Agriculture supports 
the general objective of making Federal lands available for 
education purposes, we oppose H.R. 2223. We would prefer to 
work with you, Mr. Chaimman, with Mr. Hayworth and the Members 
of the Subcommittee to address these issues through amendments 
to existing authorities of the Secretary of Agriculture.
    This concludes my statement. I would be happy to answer any 
questions you and Members of the Subcommittee might have.
                                ------                                


Statement of Steve Stratton, City Administrator, City of Globe, Arizona

    Good morning, my name is Steve Stratton. I am the City 
Administrator of the City of Globe, Arizona. I have with me 
today, Mayor David Franquero, Vice-Mayor Ross Bittner, and my 
assistant, Mary Lou Tamplin.
    It is an honor to testify on behalf of H.R. 2223. This bill 
will have a significant, positive impact on the youth of our 
country while saving the taxpayer's money.
    The City of Globe is the county seat for Gila County. The 
area of Gila County is 4,748 square miles and only 3 percent of 
the land is privately owned. Due to the small percentage of 
private land, the costs of large parcels suitable for a school 
are extremely high. The utilization of Federal lands with 
minimal or no costs will help control the escalating costs of 
building schools. This would lessen the impact on the taxpayers 
of the school district. Currently in Gila County the land 
ownership is broken-down as follows:

U.S. Forest Service    56 percent        2,659 Square miles
Indian Reservation    37 percent        1,756 Square miles
State Public Land      2 percent        95 Square miles
BLM                  2 percent        95 Square miles
Private                3 percent        143 Square miles
    Because only a small portion of land in Gila County is 
taxable, the property tax rates are the highest in the state. 
The addition of a secondary tax levy for a school bond issue 
only places an additional burden on the taxpayers. This burden 
would be lessened without a signficant cost for land. The 
additional levies are also detrimental to attracting new 
businesses to our area. New businesses are needed in order to 
diversify our economy. The City of Globe has attempted to set 
an example for municipalities and other governmental entities 
by divesting itself of unnecessary land parcels, rights of ways 
and easements.
    The citizens of our community have historically accepted 
the burden of additional taxes to provide a suitable education 
for the youth. However, in today's world of rising costs it is 
becoming increasingly difficult to bear. The future of our 
country will depend on the education we can provide for our 
youth. I would like to commend those involved with the 
inception and I would encourage you to vote in favor of this 
bill for the future of our youth.
[GRAPHIC] [TIFF OMITTED] T7365.001

 Statement of John Berry, Assistant Secretary, Policy, Management, and 
                   Budget, Department of the Interior

    Thank you for the opportunity to present the Department of 
the Interior's views on H.R. 2993, a bill to provide for the 
collection of fees for the making of motion pictures, 
television productions, and soundtracks in National Park System 
and National Wildlife Refuge System units. The Department of 
the Interior supports this bill and offers amendatory language 
that would make the bill applicable to all Department of the 
Interior land management agencies. Our amendments would also 
grant the Secretary greater flexibility in protecting both 
natural resources and the interests of the taxpayer.
    H.R. 2993 would allow the Secretary of the Interior to 
charge a fee for filming based on the fair market value of a 
filming permit, as determined by the Secretary, and authorize 
the National Park Service (NPS) and the United States Fish and 
Wildlife Service (FWS) to retain the fees they receive under 
filming permits. This authority is not only much needed, but 
should be expanded slightly to give the Secretary the necessary 
tools to best represent the interests of the public. H.R. 2993 
would also expressly repeal the present regulations governing 
the issuance of film permits in parks and refuges. Under 
existing regulation 43 CFR. 5.1(b), NPS and FWS are prohibited 
from charging fees for the making of motion pictures, 
television productions, or sound tracks in NPS or FWS units. 
The regulation does not prohibit NPS and FWS from recovering 
the costs associated with administering film permits.
    Units of the National Park Service (NPS) and the United 
States Fish and Wildlife Service (FWS) have played significant 
roles in many different types of motion picture and television 
productions. In response to a request for information from the 
Committee on Resources, the NPS and BLM (as well as the United 
States Forest Service) are presently compiling the permits they 
have issued for filming over the past 7 years. FWS has not been 
asked to compile this information. The BLM has completed its 
inventory of permits and provided this information to the 
Resources Committee. Over the past three fiscal years, 
approximately 1,000 permits were issued for filming on BLM-
managed lands. Although NPS is still in the process of 
compiling its permits, its initial review indicates that the 16 
park units that issued the most permits issued almost 2,800 
permits over the past three fiscal years. A cursory review of 
the permits that have not yet been catalogued indicates that 
the entire park system issued more than twice this amount 
during this time period.
    Many of the permits issued by NPS, BLM, and FWS are for 
small productions, some of which are commercial in nature, 
others of which are educational. However, all three agencies 
issue a significant number of permits to makers of major motion 
pictures.
    Although parks and refuges were created to conserve and 
protect natural resources and wildlife, they have played 
important roles in many high-grossing films. The 400-year old 
fortification known as ``El Morro'' in San Juan National 
Historic Site was used in the movie ``Amistad'' to depict a 
slave-trading market; the white sands of White Sands National 
Monument were used in the movie ``Star Wars'' to depict an 
otherworldly landscape; and the Linville Falls Trail in Blue 
Ridge Parkway was used for the ambush scene in ``Last of the 
Mohicans.'' These are but a few of the hundreds of memorable 
films that have been filmed in national parks over the years. 
The list includes ``Dances with Wolves,'' filmed in part in 
Badlands National Park, ``The Deer Hunter,'' made in part in 
Lake Chelan National Recreation Area, and ``In the Line of 
Fire,'' filmed at several NPS sites throughout the capital 
region. FWS units have also played host to memorable motion 
pictures. The exciting chase scene at the opening of ``The 
Raiders of the Lost Ark,'' in which Harrison Ford narrowly 
escapes a rolling boulder, among other things, was filmed in 
Hanalei National Wildlife Refuge. The movie ``Uncommon Valor,'' 
a story about a Vietnam War veteran, was filmed in part in 
Hanalei and Huleia Wildlife Refuges in Hawaii, because these 
refuges have features that are similar to those found in areas 
of Vietnam.
    It is often the unique nature of a park or refuge that 
attracts filmmakers. In some cases, a park or refuge may be the 
only option for a filmmaker whose story is inextricably tied to 
something that may only exist in a park or refuge. We believe 
the public has the right to be compensated for the commercial 
use of this uniqueness.
    The Bureau of Land Management (BLM) filming policy is 
governed by the 43 CFR 29.20 regulations, which allow the 
agency to charge fair market value for filming. The BLM allows 
each of its state offices to set their own schedules for 
filming. The California office, for instance, will charge up to 
$600 per day for the use of its lands for filming. The BLM's 
fee schedule does not appear to be a deterrent for filming on 
the public lands managed by BLM as these lands have been used 
as sites for such films as ``Star Trek VII,'' ``The River 
Wild,'' and ``Maverick.'' The United States Forest Service is 
also statutorily authorized to charge fair market value for 
filming. It allows its regional offices to set schedules. For 
example, the Southern California Regional office of the Forest 
Service charges up to $600 per day for filming in Forest 
Service sites in southern California.
    Other land-owning governmental entities charge even higher 
fees than our sister Federal agencies. The Navajo Nation, for 
instance, charges up to $2,000 a day for the use of Monument 
Valley, the site of many memorable films. Similarly, the city 
of Beverly Hills in California charges fees that exceed $2,000 
per day for filming in its city parks.
    Ironically, the NPS and the FWS charged for filming prior 
to November, 1948. Prior to 1945 film-permitting policy was 
governed by Secretarial Orders which allowed the Park Service 
to charge as much as $500 per day for filming. In 1945 a new 
Secretarial Order was put in place that permitted NPS to 
negotiate even higher fees than this for large-scale 
productions. These fees were more than twice the amount that 
the General Land Office (BLM's predecessor agency) was allowed 
to charge at the time. It is unclear why this policy was 
changed in late 1948, but it should be noted that when NPS 
charged for filming, movies were still made in parks. Many 
films, including 1947's ``Sea of Grass,'' starring Spencer 
Tracy, and filmed in Canyon de Chelly National Monument, and 
1948's ``Yellow Sky,'' starring Gregory Peck, and filmed in 
Death Valley National Monument, were made when NPS charged for 
filming.
    In late 1948 the precursor to the current 43 CFR 5.1 was 
issued, which prohibited NPS from charging filming fees. 
Another change in this regulation in 1957 prohibited FWS from 
charging fees for filming. We have searched our files but have 
not yet discovered why the regulations on filming fees were 
changed for NPS and FWS, but not for other Department of the 
Interior agencies such as BLM and the Bureau of Reclamation.
    NPS and FWS are also concerned that their inability to 
charge fees may be attracting permit applications from 
filmmakers who would seek other lands if fees were charged. The 
mission of NPS and FWS is to protect natural and cultural 
resources and wildlife. These agencies were not set up to 
attract filming business. Yet, by prohibiting these agencies 
from establishing fees the present regulations make parks and 
refuge lands more attractive to filmmakers whose films could 
also be made on other governmental or tribal lands. H.R. 2993 
would correct this anomaly by repealing 43 C.F.R. 5.1 and 
allowing NPS and FWS the authority to charge fees that are at 
least comparable to the fees charged by other agencies.
    This authority would allow fees to be set based on the 
market value of a permit, as determined by the Secretary, on a 
case-by-case basis. We would like to expand this authority 
slightly to give the Secretary even more flexibility in this 
regard. More importantly, we want to ensure that any filming 
done in parks, refuges, and other public lands is consistent 
with the missions and values of the agencies charged with their 
management. We have attached to this testimony a proposed 
amendment to H.R. 2993 (Suggested Amendment 1) that would allow 
the Secretary to determine fees in his discretion provided the 
fees are not set at less than the cost to the government of 
administering the permit, and would ensure the protection of 
the resources of our public lands. Most fees would be set at 
not less than fair market value, but the Secretary would have 
the authority to charge fees on a case-by-case basis below fair 
market value (but still not less than actual cost to the 
government) if the proposed filming project provides clear 
educational or interpretive benefits for the Department of the 
Interior. This would allow the Secretary to come to a meeting 
of the minds with an applicant for a filming permit and truly 
determine what the market will bear for each filming 
opportunity. It would also give the Secretary a better 
opportunity to weigh and understand the resource-protection 
concerns involved under each filming permit. As BLM's filming 
program would benefit by this language, it should be made 
applicable to filming on public lands managed by the BLM.
    H.R. 2993 would also allow the fees collected under filming 
permits to be distributed in the same manner as under 
subsection (c) of the act that created the recreation fee 
demonstration program. Under this program, fees are remitted to 
a special account in the Treasury. Eighty percent of the fees 
in the account go back to the park or refuge unit that 
generated the fees. Twenty percent of these fees are available 
for distribution throughout the NPS and FWS systems. We support 
the provision of H.R. 2993 that would allow fees to be 
collected and distributed in a similar manner. The fees from 
motion pictures would provide an additional source of revenue 
for parks and refuges. BLM should also benefit from this 
language. We will be happy to work with the Committee to draft 
language that will enable BLM to receive these benefits.
    Subsection (b) of H.R. 2993 provides that no fee shall be 
charged for any bonafide newsreel or news television 
production. We support this provision and have no desire to 
impede the reporting of news from parks.
    The Department of the Interior is extremely supportive of 
the goals of H.R. 2993. The public deserves to receive a fair 
fee for the use of Department of the Interior lands that play 
an important role in motion pictures, television productions, 
and soundtracks. The public will also benefit from a fee 
distribution system that would allow each land management 
agency to retain the fees generated under its film permits. We 
are confident that H.R. 2993, if amended in the manner 
suggested by this testimony, would accomplish this goal without 
compromising the Department of the Interior's primary mission 
of protecting the resources under its care. Thank you for this 
opportunity, and I would be happy to answer any of your 
questions.

                    Suggested Amendments to H.R 2993

1. Strike Section 1(a) and insert:
    The Secretary is authorized to permit, under terms and 
conditions deemed necessary by the Secretary, the use of lands 
and facilities administered by the Secretary for the making of 
any motion picture, television production, soundtrack, or 
similar projects, for commercial purposes, provided that such 
use will not impair the values and resources of such lands and 
facilities. Any authorization shall provide for payment of fees 
to the Secretary at an amount deemed appropriate by the 
Secretary, but not less than the direct and indirect costs to 
the government for the use of the area, including any necessary 
costs of clean-up and restoration. The Secretary is expected to 
establish fees at not less than fair market value, but may 
charge fees on a case by case basis at below fair market value 
if the proposed filming project provides clear educational or 
interpretive benefits for the Department of the Interior.

2. Strike Subsection 1(d) and insert:
    Amounts collected pursuant to this section shall be 
available for expenditure without further appropriation and 
shall be distributed and used, without fiscal year limitation, 
in accordance with the formula and purposes established for the 
Recreational Fee Demonstration Program in Section 315 of Public 
Law 104-134.
                                ------                                


 Statement of Maureen Finnerty, Associate Director for Park Operations 
    and Education, National Park Service, Department of the Interior

    Mr. Chairman, I am pleased to be here today to testify on 
H.R. 1728, the ``National Park Service Administrative Amendment 
of 1997.''
    We support H.R. 1728 with the clarifications outlined in 
this statement. Many citizens are concerned about the integrity 
of our National Park System. The bill before us today helps to 
ensure that integrity by providing agreement between the Park 
Service and Congress on those criteria for establishment of new 
park areas and on a process where possible new areas that fail 
to meet those criteria will not be imposed upon the system.
    This legislation comes at an important time for the 
National Park Service. To date, there are 376 units of the 
National Park System in 49 states, the District of Columbia, 
American Samoa, Guam, Puerto Rico, and the Virgin Islands. Each 
of these units was established by an Act of Congress or by 
Presidential Proclamation and represents the initiative of 
Congress and numerous Administrations to preserve and protect 
our Nation's natural and cultural heritage and to provide for 
recreational opportunities.
    All of these units represent diverse public resources under 
our permanent stewardship for the use and enjoyment by present 
and future generations.
    Efforts to preserve America's natural and cultural 
resources are longstanding. So important was the protection of 
certain special resources that several parks and monuments had 
been established and were being administered by the Interior 
Department by the time the National Park Service was 
established in 1916. Examples include Yellowstone (1872), 
Sequoia (1890), Yosemite (1890), and Mount Rainier (1899). When 
the NPS organic act was signed, 14 national parks and 21 
national monuments were immediately transferred to the new 
agency where attention could be focused on these important 
resources. The NPS organic act provided that the conservation 
of these and future units would be the responsibility of the 
National Park Service.
    Since then, the National Park System has continued to grow. 
Through the years, the NPS and Congress have taken steps to 
protect natural and cultural resources. In the early 1900's, 
plunder and destruction at the hands of pot-hunters and vandals 
threatened many cultural resources. As a result, Congress 
passed the Antiquities Act in 1906 to protect these and other 
valuable resources. Devils Tower and Petrified Forest, both 
established in 1906, exemplify the success of this legislation.
    Next, recognizing that historical areas were at risk, 
Congress passed the Historic Sites Act in 1935 to preserve 
historic sites, buildings and objects of national significance 
for public use. Quite recently, Congress passed legislation to 
establish the Mojave National Preserve in California to protect 
transitional desert resources found only in the Mojave Desert.
    Without these and other laws, it is possible that many of 
our nationally significant resources would be lost forever. 
Many resources today still remain at risk. Even though the 
first national park was established in 1872, America still 
contains outstanding natural and cultural resources that are 
worthy of inclusion in the National Park System. At the same 
time, however, the NPS is trying to cope with new and growing 
demands with limited financial resources. We recognize these 
challenges and continue to work to meet them.

New Area Establishment

    In 1976 Congress directed the NPS to monitor the welfare of 
areas that exhibit qualities of national significance and to 
conduct studies on those that have potential for inclusion in 
the National Park System. For the next several years, there was 
a congressional requirement that we study and forward a list of 
at least 12 potential new parks each year. In 1981 the 
appropriations committees dropped funding for the program and 
indicated that an annual listing of new park candidates was no 
longer required. Between 1981 and 1990, NPS undertook a few 
studies in response to specific instructions from Congress. 
Then, in 1991, the Service began once again to identify its own 
priorities, using a ranking system that considered 
significance, rarity, public use potential, educational 
potential, resource integrity/risks, public support, costs, 
availability of data, suitability, feasibility, and special 
initiatives.
    Most recently, in fiscal year 1998, Congress appropriated 
funds for 10 studies of potential new parks. Eight of those 
studies are being done in response to directions from the 
appropriations committees. Only two of the studies respond to 
legislation that was considered by the authorizing committees 
and adopted by Congress. While the purpose of our study program 
is to evaluate sites with potential for inclusion in the 
National Park System, most of the projects underway are 
focusing on heritage area concepts and other partnership 
approaches that do not anticipate acquisition and management by 
the National Park Service.
    Our files contain more than 300 studies done since the 
1930's on areas that have not been added to the park system. 
Since the 1970's, only about one in four of the areas studied 
became the subject of legislation adopted by Congress to expand 
an existing park or create a new one. Our study process has 
been successful in determining resource, significance, 
suitability, feasibility, and offering Congress a range of 
alternatives for protecting resources through partnerships that 
do not involve additions to the National Park System. Careful 
scrutiny, analysis and application of existing criteria through 
our study process have provided the best defense against 
expansion of the park system into areas that fail to meet 
established standards.
    We believe the best way to avoid inappropriate additions 
that do not fully meet the criteria for inclusion in the system 
is to continue to advance programs which foster alternatives. 
The NPS today operates several small but vigorous programs, 
which suggest and support alternatives to inclusion within the 
system. These include means ranging from honorific recognition 
(such as listing on the National Register of Historic Places); 
and to direct planning help from the River, Trails and 
Conservation Assistance Program. We also encourage the 
alternative of establishing locally controlled heritage 
partnership areas as a way to preserve specific landscapes and 
areas of local or regional historical importance.
    Sustaining a diverse ``bag of tools'' to offer park 
advocates is one of the best means of maintaining the integrity 
of the national park system.
    The National Park System Advisory Board has recently 
reviewed our criteria for parklands and found them to be 
essentially sound. We intend to clarify and strengthen those 
criteria as recommended by the Board in conjunction with an 
update to our management policies, scheduled for completion 
later this year.
    These updated criteria would be used in conducting the 
studies of areas for potential addition to the system, as 
currently proposed in H.R. 1728. Of course Congress will have 
to determine how these studies are used in developing 
legislative proposals. No study process or set of criteria will 
be successful in assuring the integrity of the National Park 
System if new parks are authorized without having studies 
completed or the criteria applied.
    Before concluding, we would like to use this opportunity to 
point out two areas of concern in H.R. 1728. The first involves 
Section (d), which directs the NPS to establish a New Area 
Study Office. We do not believe that it is necessary or 
appropriate for Congress to direct the establishment of a 
separate new area study office. We agree that studies need to 
be coordinated and conducted with some assurance that the 
criteria will be applied from a perspective of the national 
park system, not just responding to local or regional 
interests. However, we currently seek to accomplish this by 
having an internal review process by all interested offices. We 
find that the quality of the studies is enhanced by bringing 
together the best available expertise from many different 
sources within the National Park Service and from experts 
outside of the Service. A mandate to create a separate office 
for studies is likely to require unnecessary expense and may 
not produce the intended result in terms of improving the 
quality of our reports.
    Our second suggestion concerns the language in Section 
(c)(2)(A) which addresses studies of areas potentially, . . . 
possess[ing] nationally significant natural or cultural 
resources, or outstanding recreational opportunities. . . . 
Based on the recent conclusions of the National Park System 
Advisory Board, we believe that areas under consideration for 
inclusion in the system must have true national significance in 
the categories of cultural or natural resources before we would 
address their merits as significant recreational opportunities. 
The system maintains a sufficient collection of recreational 
areas per se. We believe that areas solely providing 
recreational opportunities are more appropriately considered 
for state or local management when weighed against the full 
mission of the National Park Service. We do not believe that 
areas should be added to the National Park System based only on 
their values for recreation unless they contain natural and 
cultural resources that meet standards for significance, 
suitability and feasibility.
    Additionally, we have some technical amendments that we 
would be pleased to work with you to address.
    H.R. 1728 would provide a way for the National Park Service 
to work with the authorizing and the appropriation committees 
to reach a common understanding of what areas should be studied 
for potential inclusion in the park system. This approach has 
been in place and worked well for wild and scenic rivers and 
national trail system studies. It would certainly be 
appropriate for studies of potential new parks.
    Mr. Chairman, this concludes my prepared remarks. I would 
be pleased to respond to your questions at this time.
                                ------                                


   Statement of Fritz E. Attaway, Senior Vice President, Government 
Relations and Washington General Counsel, Motion Picture Association of 
                                America

    Mr. Chairman, members of the Subcommittee, thank you for 
giving me this opportunity to testify on H.R. 2293, concerning 
the filming of motion pictures in the National Park and 
National Wildlife Refuge Systems.
    The Motion Picture Association of America is a trade 
association representing seven of the world's largest producers 
and distributors of feature films, television programs and home 
video material.\1\ The U.S. film industry is a significant 
contributor to our nation's employment and gross domestic 
product, and is one of our country's most successful exporters.
---------------------------------------------------------------------------
    \1\ MPAA member companies include Buena Vista Pictures 
Distribution, Inc. (Disney); Sony Pictures Entertainment Inc.; Metro-
Goldwyn-Mayer Inc.; Paramount Pictures Corporation; Twentieth Century 
Fox Film Corporation; Universal Studios, Inc.; and Warner Bros.
---------------------------------------------------------------------------
    The National Parks and Wildlife Refuges are frequently 
highly desirable locations for filming movies, TV shows and 
other audiovisual works. Because of this, they offer a 
potential source of Federal revenues from producers willing to 
pay reasonable fees for the privilege of filming on Federal 
lands.
    Unfortunately, right now, the production divisions of our 
companies face major challenges in securing national park 
locations for filming. They are confronted with diverse rules, 
standards and requirements that make using the parks burdensome 
and unattractive for television and motion picture production. 
As a result, our companies often seek out private lands and 
sometimes state parks, as well as locations outside the United 
States.
    The motion picture industry enthusiastically supports the 
desire, which I believe is reflected in H.R. 2993, to encourage 
filming in the National Park and Wildlife Refuge Systems in 
return for reasonable fees that will help remove some of the 
burden on the tax paying public. I am here to declare that 
support, and to suggest some amendments to this bill that, in 
our view, will contribute to the goals it seeks to achieve.
    Currently, the National Parks Service cannot charge fees 
for filming. Although the parks can be reimbursed for the costs 
of filming (ranger time, parking, use of camp grounds, etc.), 
those recovered costs from filming do not go back to the park 
location, but into the general treasury. This encourages park 
administrators to be indifferent to filming or even hostile, 
because their efforts to facilitate filming produce no direct 
return. While film companies presently do regularly make 
contributions to non-profits associated with parks, that is an 
unpredictable and inconsistent basis for attempting to secure 
the cooperation and good will of park personnel.
    H.R. 2993 is designed to help the parks earn revenues on 
motion picture production by establishing a reasonable fee 
schedule that would benefit both the parks and the film 
industry. MPAA supports this objective.
    H.R. 2993 would direct 80 percent of filming fees to the 
park in which the filming takes place. This not only would 
relieve some of the burden on taxpayers, it would also provide 
a very meaningful incentive for park administrators to 
encourage filming as a means to fund park expenditures, and 
create a positive, synergetic relationship between filmmakers 
on one hand and park employees and patrons on the other. We 
strongly endorse this provision.
    H.R.2993 would require that film permit fees be established 
by the Secretary on a ``case-by-case basis'' at ``fair market 
value.'' While no one would argue that the Secretary should 
have some discretion in granting film permits, and that the 
Federal Government should receive fair compensation for the use 
of Federal lands, as presently written, the bill would produce 
unintended consequences that would seriously detract from its 
purpose.
    Filmmaking is a business as well as an art. On the business 
side, filmmakers like most other businesses, require 
transparency and predictability. That is, they need to know 
what the rules are, and they need to know what the results will 
be if they abide by the rules. With regards to filming on 
public land, filmmakers need to have clear and precise 
information that tells them what will be expected of them if 
they choose to film on park land, and they need to have some 
level of assurance that they will be allowed to film if they 
meet specified terms and conditions.
    Establishing fees on a case-by-case basis would be 
antithetical to the uniformity and standardization that is 
essential to making the parks hospitable to filming. Instead, 
the Secretary should promulgate a fee schedule that applies to 
all parks on a national level, taking into account factors such 
as accessibility, environmental protection, public safety and 
other matters that affect the cost of filming to the government 
in particular types of locations.
    ``Fair market value'' is not a practicable standard for 
determining a reasonable fee for filming on park land. What is 
the relevant market? Would the temporary use for filming be 
compared to a concessionaire's setting up a stand in the park? 
Would it be compared to the use of private land on which there 
are no hours or location restrictions; no governmental 
monitoring; no wildlife, vegetation or cultural resources 
constraints; no visitors, etc.? Would it be compared to grazing 
or mining? None of these measures provides a comparable 
standard for establishing a ``fair market value'' for the 
purpose of filming.
    MPAA would suggest that a reasonable fee for the purpose of 
filming should be based on the number of people in the filming 
party--a very reliable predictor of the size and complexity of 
the film project and the impact it will have on the resource. 
On a given day, ``Lethal Weapon IV'' may have 35 people on the 
special effects crew alone; ``Titanic'' had 45 people in 
costuming alone. A smaller film or second unit might not have 
that many people in the entire crew. A commercial might have 10 
people.
    The National Forest Service already has devised a fee 
schedule that is based on the number of persons taking part in 
the filming. There is an application fee of $200, and graduated 
fee schedules depending on the number of people involved. For 
still photography the fee is $50 to $250 per day, and for film 
crews the fee is $150 to $600 per day. In addition, there is a 
``unique site fee'' for certain unusual locations. Most 
photographers and film companies find this schedule reasonable.
    MPAA strongly recommends that the Secretary of the Interior 
be directed to delegate the task of establishing a reasonable 
fee schedule to a committee of Federal land managers, such as 
NPS, BLM and Forest Service personnel, with the Forest Service 
taking the lead. If all Federal lands were handled uniformly, 
the benefits to the government and the motion picture and TV 
producers would be compounded.
    H.R. 2993 provides a civil penalty of up to 200 percent of 
the filming fee if the Secretary finds that the filming 
regulations have been violated. While effective penalties 
should be imposed on those who violate the rules, the monetary 
penalty provided by H.R. 2993 invites erratic application and 
in any case is likely to be ineffective. The threat of being 
shut down will be more daunting than that of being fined. 
Location filming is extremely expensive. Delays are exceedingly 
costly, in some cases amounting to tens or even hundreds of 
thousands of dollars a day. If the rules are violated, the 
cessation of filming would be the strongest deterrent to future 
violations.
    I would like to note that the National Park Service has 
identified for us a central point of contact for filming on a 
national level. This has provided an extremely valuable 
resource to our industry and promises to greatly facilitate 
filming on park land to the mutual benefit of filmmakers and 
the public. We are looking forward to having the help of this 
person in the future with specific production problems and the 
identification of alternate locations.
    I would also like to note that the National Park Service 
has recently published proposed guidelines that address 
filming. We are studying these proposed guidelines and will 
provide this Subcommittee with a copy of our comments to the 
National Park Service.
    In closing, I commend Congressman Hefley for addressing 
this very important issue and urge this Subcommittee to 
consider amendments to H.R. 2993 that would correct the 
problems I have mentioned.
                                ------                                


Statement of Leigh van der Esch, Executive Director, State of Utah Film 
                               Commission

    Mr. Chairman, members of the Subcommittee, thank you for 
giving me this opportunity to testify on H.R. 2993, concerning 
the filming of motion pictures in the National Parks and 
National Wildlife Refuge Systems.
    I concur with Mr. Attaway's points that the National Parks 
and Wildlife Refuges are frequently the location of choice for 
filming movies, TV shows, and other audiovisual works. As 
Executive Director of the Utah Film Commission I have scouted 
and facilitated the use of Federal lands, including our five 
National Parks, for over 13 years, and previously worked on 
location on public lands for the motion picture industry. 
Utah's beauty is synonymous with the motion picture, from John 
Wayne to Butch Cassidy and the Sundance Kid, from Thelma & 
Louise to Independence Day--all are major movies that have 
utilized public lands, and in most instances, our National 
Parks.
    Having worked with our Federal land managers in the 
National Parks, the Forest Service and the Bureau of Land 
Management for so many years, I am very familiar with the 
difficulty of the land managers in meeting the demands of the 
public, which increases in its use yearly of the public lands, 
balanced against the need to protect and preserve the land and 
capital infrastructure, with limited financial and personnel 
assistance. Again, I concur with Mr. Attaway that the motion 
picture and audiovisual production activities can offer a 
potential source of Federal revenues, if reasonable fees and 
filming regulations can be created. I applaud any efforts and 
your desire to make this occur.
    A film commission's purpose is to serve as a marketing 
agency for its respective governmental jurisdictions, to 
attract the motion picture and audiovisual works to use those 
locations as backdrops to the production. We view this activity 
as a resource sustaining, activity, highly lucrative to the 
local economies, particularly in rural areas largely made up of 
Federal lands. Our job is also to facilitate the production 
activity, which in most instances has minimal impact, and which 
in all instances should be mitigated. The motion picture 
industry is one which pays its own way.
    As state film commissioners, and each state has one, as 
well as provinces, regions and counties throughout the world, 
we share the concerns of the production community, as well as 
the challenges in securing National Parks as locations for 
filming. We also face diverse rules, standards and requirements 
that can make parks burdensome and unattractive for television 
and motion picture production, and consequently see us lose 
jobs and purchase of goods and services to other jurisdictions 
and locations outside the United States.
    I support your desire reflected in. H.R. 2993 to encourage 
filming in National Parks in return for reasonable fee that can 
bridge the financial gap of service and land needs, and help 
remove some of the burden of the taxpaying public.
    This is a win-win opportunity. In addition to additional 
revenue for our parks and land agencies is the opportunity to 
create a synergy with the production community during filming--
land managers will see the benefit directly to their areas if 
the change to retain more of the fees locally can be 
accomplished, and the production community will feel more 
proprietary towards the land they are using by seeing their 
fees contribute to the local area.
    I agree with Mr. Attaway's concern about ``case by case'' 
and ``fair market value fees.'' Having facilitated production 
for so many years, I believe there are three major needs in the 
fees and regulation which should be met: these are clarity, 
consistency, and speed.
        1. The rules and fee structure should be clear to all using the 
        public lands.
        2. A fee schedule as suggested by Mr. Attaway (and currently 
        used by the forest service) should be consistent from 
        jurisdiction to jurisdiction. Common guidelines and procedures 
        (even given different mandates) followed by our Public Land 
        Management Agencies would be helpful.
        3. Clear and consistent fees and regulations should enable the 
        producer (be they motion picture, TV or commercial) to expect 
        processing of filming permits on a more timely basis. Currently 
        some of our burdensome regulations require weeks for 
        processing, and in an industry is dependent on the cooperation 
        of our unpredictable (El Nino) weather, flexibility for 
        changes--artistic logistical or financial--are almost 
        impossible.
    I also share Mr. Attaway's concerns about the proposed penalties 
for violations, cessation of filming is more daunting. I hope this area 
can be revisited.
    I am currently receiving the National Parks proposed guidelines for 
further comment by the April deadline.
    Finally, my thanks to you for this opportunity to comment and for 
your efforts in addressing filming in our National Parks and Wildlife 
Refuges and all Federal lands. I greatly appreciate all of the fine 
land managers I work with in Utah and have worked with elsewhere. We 
share a love of the beauty of out National Parks and public lands, and 
I believe it is an industry that can contribute much to the economy of 
our local jurisdictions, can and has paid its own way to the betterment 
of all, and takes only an image of the land when it leaves.
    Thank you for your time.
    [GRAPHIC] [TIFF OMITTED] 47365.002
    
    [GRAPHIC] [TIFF OMITTED] 47365.003
    
    [GRAPHIC] [TIFF OMITTED] 47365.004
    
    [GRAPHIC] [TIFF OMITTED] 47365.005
    
    [GRAPHIC] [TIFF OMITTED] 47365.006
    
    [GRAPHIC] [TIFF OMITTED] 47365.007
    
    [GRAPHIC] [TIFF OMITTED] 47365.008
    
    [GRAPHIC] [TIFF OMITTED] 47365.009
    
    [GRAPHIC] [TIFF OMITTED] 47365.010
    

</pre></body></html>
